<html>
<title> - IMPLEMENTATION OF AN ENTRY-EXIT SYSTEM: STILL WAITING AFTER ALL THESE YEARS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 IMPLEMENTATION OF AN ENTRY-EXIT SYSTEM: STILL WAITING AFTER ALL THESE 
                                 YEARS 

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-54

                               __________

         Printed for the use of the Committee on the Judiciary

      Available via the World Wide Web: http://judiciary.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

85-565 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                           NOVEMBER 13, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Committee on the Judiciary     4
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Member, Committee on the Judiciary.........     4
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     6

                               WITNESSES

Janice Kephart, former Special Counsel, Senate Committee on the 
  Judiciary, former Counsel to the 9/11 Commission
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
James N. Albers, Senior Vice President of Government Operations, 
  MorphoTrust USA
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69
Julie Myers Wood, President, Compliance, Federal Practice and 
  Software Solutions, Guidepost Solutions
  Oral Testimony.................................................    80
  Prepared Statement.............................................    82
David F. Heyman, Assistant Secretary, Office of Policy, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................    92
  Prepared Statement.............................................    94

                                APPENDIX
               Material Submitted for the Hearing Record

Listing of Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   139


                           IMPLEMENTATION OF
                         AN ENTRY-EXIT SYSTEM:
                  STILL WAITING AFTER ALL THESE YEARS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:20 a.m., in room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Smith of Texas, 
Chabot, Bachus, King, Gohmert, Poe, Chaffetz, Marino, Gowdy, 
Labrador, Farenthold, Holding, Conyers, Scott, Watt, Lofgren, 
Jackson Lee, Johnson, Chu, Gutierrez, DelBene, Garcia, and 
Jeffries.
    Staff present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; Kelsey Deterding, Clerk; (Minority) Perry 
Apelbaum, Minority Staff Director & Chief Counsel; Danielle 
Brown, Parliamentarian; Tom Jawetz, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. Without objection, the Chair is authorized to 
declare recesses of the Committee at any time.
    I will begin with my opening statement.
    Successful immigration reform must address effective 
interior enforcement. An important component of interior 
enforcement is dealing with legal immigrants who violate the 
terms of their visas and thus become unlawfully present in the 
United States.
    The Illegal Immigration Reform and Immigrant Responsibility 
Act of 1996 first required the creation, within 2 years of the 
date of enactment, of an automated system to track the entry 
and exit of all travelers to and from the United States. Since 
that time, Congress has reiterated and expanded on this 
requirement over half a dozen times, mandating an exit 
monitoring system at all air, land, and sea ports of entry.
    In 2004, Congress added the requirement that the exit 
program be implemented using biometric technology. Yet despite 
numerous pieces of legislation enacted by Congress, these 
statutorily mandated requirements have never been implemented 
by either present or past Administrations.
    In the meantime, numerous estimates indicate that as many 
as 40 percent of all individuals unlawfully present in the 
United States entered the country legally and violated the 
terms of their visas by overstaying. To make matters worse, in 
July of 2013 the General Accountability Office found that the 
Department of Homeland Security has more than 1 million 
unmatched arrival records; that is, arrival records for which 
the DHS does not have a record of departure or status change.
    The ability to effectively track who arrives in and 
subsequently departs from the United States is a necessary 
first step for immigration reform. An effective exit tracking 
program must help identify all of those who arrived lawfully 
but remain in the U.S. in violation of the law.
    To compound matters, experts say that terrorist overstays 
are also a significant issue which under the current system can 
be tracked down only through difficult, tedious, and time-
consuming investigations. Recent reports indicate that 
terrorist overstays include Hosan Smadi, a Jordanian national 
who plotted to blow up a Dallas skyscraper in 2009, and Amine 
El Khalifi, a Moroccan whose visa expired in 1999 and who was 
arrested in an attempt to bomb the U.S. Capitol in 2012.
    Not having an exit system in place led the former 
commissioners of the 9/11 Commission to conclude in 2011 that, 
``The Department of Homeland Security, properly supported by 
the Congress, should complete, as quickly as possible, a 
biometric entry-exit screening system. As important as it is to 
know when foreign nationals arrive, it is also important to 
know when they leave. Full deployment of the biometric exit 
should be a high priority. Such a capability would have 
assisted law enforcement and intelligence officials in August 
and September 2001 in conducting a search for two of the 9/11 
hijackers who were in the United States on expired visas.''
    Seventeen years after Congress required an entry-exit 
system, no exit system is in place. This Administration and 
past Administrations had plenty of time to get this done, yet 
they continue to make excuses as to why it cannot be completed. 
In fact, this Administration has openly violated the law.
    The Department of Homeland Security has moved to implement 
biographic exit contrary to law even though former Department 
of Homeland Security Secretary Janet Napolitano told the GAO 
that she has no confidence in the current biographic data 
system. Biographic systems are especially vulnerable to fraud.
    Unfortunately, not only does the Administration continue to 
ignore statutory mandates, but numerous congressional proposals 
actually seek to roll back current law with respect to a 
biometric exit system at all ports of entry. For example, the 
Senate bill erodes enforcement mechanisms in current law by 
requiring biometric exit initially at the top 10 international 
airports and a total of only 30 airports within 6 years, 
although there are 74 international airports in the United 
States and 34 international seaports. The bill does not even 
address land and sea ports.
    It is estimated that the majority of the millions of people 
who come to the United States each year come through the land 
ports of entry, and the GAO found that roughly one-third of all 
overstayers came through land ports of entry. No single 
proposal effectively addresses this issue with the exception of 
H.R. 2278, the SAFE Act. Mr. Gowdy's bill, via Mr. Smith's 
amendment, contains the only language that requires a biometric 
entry-exit system at all ports of entry within a definite time 
period. In order to be effective, any entry-exit provisions 
must have a definite and prompt timeframe for total 
implementation. If not, we will send the message that Congress 
is not serious.
    The SAFE Act shows how to avoid the mistakes of the past 
with regard to immigration law enforcement. I look forward to 
hearing from all of our witnesses today and thank Mr. Gowdy for 
introducing this game-changing legislation, and Mr. Smith for 
his crucial amendment to reassert that Congress is serious 
about ensuring a fully functioning exit system at all ports of 
entry.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Members of the Committee, we are here today to find out and 
learn what the Department of Homeland Security is doing to 
implement a system that tracks who enters our country and who 
leaves our country. We are pleased to have the Assistant 
Secretary for Policy of the Department here with us.
    The Department is required by law to establish an entry-
exit system that relies upon the collection of biometric data. 
Many of my colleagues are frustrated that the system, 
particularly the biometric exit system, is not yet in place.
    Nevertheless, we should recognize that today we are more 
able than ever to screen people who are applying for visas or 
requesting entry into our country. We now collect fingerprints 
from people at each of these stages, and we have a biometric 
entry system at our land, sea, and airports. We are also better 
able to confirm whether people have left the country or 
overstayed their visas. Airlines share information from 
passenger and crew manifests before aircraft doors are secured.
    So we have a pretty good idea who is on an international 
flight before the plane leaves the gate, and we can now use 
that information to identify people who have overstayed their 
visas and to run that information through our various security 
checks.
    We also have a very productive exchange of information with 
Canadian authorities that helps us identify exits along our 
northern land border.
    But, of course, there is still more that can be done, and 
that is why today's hearing allows us to hear from the 
Department of Homeland Security itself, as well as other 
witnesses who will share their perspectives on the topic.
    But I have to observe one thing before I yield back my 
time. It is now the middle of November, and the House of 
Representatives has done almost nothing to fix our broken 
immigration system. The Senate passed S. 744, a bipartisan 
immigration reform bill, in June, 139 days ago. Republican 
leadership in the House called it ``dead on arrival.'' Our 
colleague, Joe Garcia of this Committee, introduced another 
bill, H.R. 15, last month, and already the bill, to date, has 
191 co-sponsors. Republican leadership has pledged to take no 
action on the bill. And now press reports that Republican 
leadership intends to bring no immigration bill to the floor 
before the end of the year because there isn't enough time on 
the calendar.
    The very first hearing that the House Judiciary Committee 
held in the 113th Congress was on the need for immigration 
reform. My hope at the time was that the hearing signaled the 
beginning of an open dialogue focused on the creation of an 
immigration system that serves American businesses, families 
and security. Instead, I read time and time again that House 
Republicans oppose comprehensive immigration reform but support 
a piecemeal approach to fixing the problem.
    We keep hearing that five bills are ready for consideration 
and more are being drafted. Where are they? If House 
Republicans oppose comprehensive immigration reform but support 
a piecemeal approach to fix our immigration system, show us. Do 
something. We have been trying to fix our broken system for 
well over a decade, and I believe we are closer together today 
than we have ever been before. But now is not the time for more 
talk, talk, talk. Now is the time for action.
    Mr. Chairman, let's work together to bring immigration 
legislation to the floor immediately to fix our broken system.
    I thank you and yield back the balance of my time.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And I will now turn to the Chairman of the Subcommittee on 
Immigration and Border Security, the gentleman from South 
Carolina, Mr. Gowdy, for his opening statement.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Before I yield to Mr. Smith, I couldn't help but note, when 
our colleague from Michigan was talking, that from 2008 to 
2010, when our colleagues on the other side of the aisle 
controlled every single gear of government, no comprehensive 
immigration reform package was put together.
    Now, I have some colleagues like Luis Gutierrez and Zoe 
Lofgren that have worked their entire lives for it, but let's 
don't rewrite history and blame this Committee for what a 
Democrat-controlled Committee didn't lift a finger to do from 
2008 to 2010.
    With that, I would be pleased to yield to the gentleman 
from Texas, former Chairman of the Judiciary Committee, Lamar 
Smith.
    Mr. Smith of Texas. I am tempted not to say anything at 
all, but I appreciate the gentleman from South Carolina, the 
Chairman of the Immigration Subcommittee, for sharing his time.
    Over 40 percent of immigrants in illegal status came here 
legally but overstayed their visas. A recent Bloomberg poll 
shows that 85 percent of Americans support a system to track 
foreigners that enter and leave the country. This scores higher 
than any other immigration question.
    New biometric technology has reduced the cost of 
implementation significantly. Five-year-old cost estimates that 
some opponents of biometrics cite are clearly out of date.
    Congress required the use of biometrics instead of 
biographic data to track foreign nationals because biographic 
information is very susceptible to fraud, and I want to thank 
Chairman Goodlatte and Subcommittee Chairman Gowdy for 
including biometric entry-exit language in H.R. 2278, the SAFE 
Act, at our mark-up in June. Our language is the only proposal 
being considered by Congress that requires a definite 
implementation deadline for a biometric entry-exit system at 
all ports of entry.
    It has been 17 years since the entry-exit system was first 
enacted in a 1996 immigration bill I introduced. We are long 
overdue in fully implementing a biometric tracking system.
    Again, I thank the gentleman from South Carolina for 
yielding me time and yield back at this point.
    Mr. Gowdy. I thank the gentleman from Texas. He is correct. 
Seventeen years ago the Illegal Immigration Reform and 
Immigrant Responsibility Act was enacted. The law requires an 
automated system to track the entry and exit of visitors to and 
from the United States. Despite Congress reiterating its 
mandate for an exit system over the past 17 years, DHS has 
failed to execute the law. The law's entry mandate was 
completed in a reasonable amount of time. However, exit has 
never been completed.
    This is problematic for myriad reasons. Not only should we 
be concerned with who is entering the country, but just as 
importantly we need to know who is exiting or not exiting our 
country, and not knowing who resides here is an issue of 
national security. As many as four of the 9/11 hijackers had 
either overstayed or violated the terms of their visas, and 
several other high-profile terror plots have originated with 
aliens who entered the country legally and overstayed.
    The 9/11 Commission was keenly aware of the problem, Mr. 
Chairman, in their report issued over 9 years ago. The 
Commission recommended the Department of Homeland Security, 
properly supported by Congress, should complete as quickly as 
possible a biometric entry-exit screening system. It is 
estimated that as many as 40 percent of undocumented immigrants 
come to the United States on temporary visas and remain in 
violation of the law. A biometric exit screening system would 
provide a means to know which temporary visitors failed to 
adhere to our immigration laws, and we could begin to tackle 
the issue of visa overstays.
    In Fiscal Year 2012, ICE arrested 1,374 individuals who 
overstayed their visa, and for those who may have thought I 
misread that, 1,374. However, they have estimated there are 2.3 
million people who have overstayed their visas in the United 
States. So 1,374 out of 2.3 million is not very good.
    So where are we? Seventeen years after Congress mandated an 
automated entry and exit system to track all travelers coming 
into and departing the United States, 13 years after Congress 
reaffirmed that mandate and extended it to high-volume land 
border points of entry and exit, and 12 years after the Patriot 
Act mandated the entry-exit system be biometric, we are 
precisely where we started in 1996, Mr. Chairman, which is we 
have no automated system to track existing foreign visitors.
    I hope the witnesses before the Committee today will 
provide information on the challenges preventing the 
implementation of a biometric entry-exit system and ideas for a 
way forward.
    And with that, I would yield the remainder of my time back 
to the Chair.
    Mr. Goodlatte. Thank you, Mr. Gowdy.
    And I would now like to recognize the Ranking Member of the 
Subcommittee on Immigration and Border Security, the 
congresswoman from California, Ms. Lofgren, for her opening 
statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I don't think anyone opposes the idea of keeping track of 
when people enter and exit the country. With that knowledge, we 
would be able to determine when people had overstayed their 
periods of authorized admission and were present in violation 
of the law. We would be able to make informed decisions about 
how to use our limited enforcement resources to apprehend and 
remove such people, and we would also be able to make changes 
to improve our visa issuance practices, the visa waiver 
program, and a host of other things.
    So I hope today we will learn precisely what DHS has done 
over the years to set up our current entry-exit system, what 
work the Department is doing to improve that system, and what 
we can expect to see in the future.
    As has been mentioned, Congress first mandated the creation 
of the automated entry-exit system in 1996, and we built upon 
that mandate several times. The ultimate goal is to establish a 
system that is realistic and cost-effective, that promotes 
national security and compliance with immigration law, and that 
does not overly disrupt the legitimate flow of persons and 
goods through our ports of entry. That flow represents billions 
of dollars in freight and travel each day and is an essential 
part of our Nation's economy and job market.
    We know this is a challenge. I remember a witness from the 
Heritage Foundation pointed out in a hearing in 2011 before the 
Subcommittee, and this is a quote, ``If this was a mandate that 
could have been easily fulfilled, it would have been fulfilled 
back in the 1990's when it was first implemented.''
    Despite the challenge, I think we have made progress over 
the years. It is true we do not have a biometric exit system at 
our land, sea and airports. I suspect this has already been 
mentioned--that will be a major focus of the hearing. But I 
would like to also focus on what has been done.
    We have improved our ability to identify visa overstays and 
to track people exiting the country through deployment of 
biometric entry systems and enhancements to our biographic exit 
systems. We have made improvements in data sharing capabilities 
and we have an innovative cooperative agreement with the 
Canadian government, our partner to the north.
    Let me say one thing further about the development of a 
biometric exit system. Many of us have long believed that the 
Department's goal should be to fulfill its statutory obligation 
to establish a biometric exit system at land, sea and airports. 
That was my position after reviewing the 9/11 Commission 
recommendations, and I still believe that is something we 
should continue to explore.
    I have been frustrated with the lack of progress, but I am 
also pleased to hear the Department continues to pursue this 
objective and that it is poised to test and pilot a variety of 
new technologies and approaches to the problem in the next 
couple of years.
    It is one thing to complain that the Department has not 
made progress toward that goal, and it is another to understand 
exactly what it would take to get there. And that is why I 
think when it comes to biometric exit, the three important 
questions for today's hearing are: one, is it possible for us 
to have a biometric exit capability at every land, sea and 
airport; two, if it is possible, how much would it cost, how 
long would it take, and what would have to happen to make it a 
reality; and three, what would we get from a fully deployed 
biometric exit system that we would not be able to get through 
an enhanced biographic exit system and cooperative partnerships 
with neighboring countries?
    We need answers to these questions because we must know 
whether the task before the Department is achievable. If it is, 
we must all have a realistic understanding of what it will take 
to get there. This will be expensive.
    Several years ago, the Department concluded that 
implementing a biometric exit system at airports would cost $3 
billion over 10 years. At land ports, the cost would be 
exponentially greater and require not only a large increase in 
personnel but also very large investments in port 
infrastructure. For a Congress that is intent on cutting 
spending at every turn, that just narrowly avoided a default on 
the Nation's debt, that actually shut down the government for a 
period of weeks because of an intent not to pay bills that had 
already been incurred, these costs must be front and center in 
our discussion.
    Finally, we need to understand what marginal improvements a 
biometric exit system would have over an enhanced biographic 
system paired with our Beyond the Borders agreement with 
Canada. I am a fan of technological solutions. I come from 
Silicon Valley. But I also want to know exactly what problem we 
are trying to solve and how the new solution is better than 
what we currently have.
    I hope we can get answers to these questions today. I look 
forward to the witnesses. But before I close, let me just say 
how disappointed I was to hear the news that the House is not 
intending to consider immigration bills before the end of the 
year. I think we have an historic opportunity before us to work 
together to improve our immigration laws.
    I thank the Chairman of the Subcommittee for his kind 
comments about myself and Mr. Gutierrez. I am mindful that we 
did not do immigration reform in a comprehensive way when we 
had the majority. As Democrats we were actually, in the House, 
deferring to the Senate, hoping that they could have bipartisan 
agreement, and they ultimately failed. The gentleman was not a 
member of that Congress, but we did pass the Dream Act when 
Democrats were in the majority, and it fell short in the 
Senate.
    I just believe that we can put our hands across the aisle 
and work together and improve our laws. I would hope that the 
spirit and intent to do that has not faded on the part of the 
majority. Certainly I would hope to continue to work with the 
majority to solve this problem for our country, and I yield 
back.
    Mr. Goodlatte. The Chair thanks the gentlewoman for her 
statement.
    And I also appreciate her closing comments and her gesture 
and her long-time work, along with other Members of the 
Committee, on this issue, and I want to assure you that you 
have my commitment and many Members on my side of the aisle's 
commitment to continue to work to try to advance immigration 
reform. It is something that is badly needed, and we are going 
to be very dedicated to continuing to work in that direction.
    Without objection, other Members' opening statements will 
be made a part of the record.
    And at this time I would like to welcome our panel of 
witnesses. As is customary with this Committee, if you would 
all rise, I will begin by swearing you in.
    [Witnesses sworn.]
    Mr. Goodlatte. Thank you very much. Let the record reflect 
that all of the witnesses responded in the affirmative.
    I will begin by introducing Janice Kephart. Ms. Kephart 
recently returned from a Special Counsel position with the 
Senate Judiciary Committee, where she advised and supported 
work during the Committee's consideration of immigration 
legislation. Ms. Kephart also served as counsel to the 9/11 
Commission and was a key author of the staff monograph, ``9/11 
and Terrorist Travel,'' as well as the immigration-related 
Facts and Recommendations in the 9/11 Commission Report. Ms. 
Kephart holds degrees from Duke University and Villanova School 
of Law.
    Mr. James Albers is the Senior Vice President of Government 
Operations for MorphoTrust USA, a company that provides 
identity solutions in biometrics, background checks, and secure 
credentials. In this role, Mr. Albers is responsible for all of 
MorphoTrust's Federal business operations across the three 
market segments--enterprise, identity, and services. Prior to 
joining MorphoTrust, Mr. Albers served as Vice President of 
Government Operations for Sarnoff Corporation and was President 
at Frequency Engineering Laboratories. Mr. Albers graduated 
from George Washington University with a degree in political 
science.
    Ms. Julie Myers Wood is the President of Compliance, 
Federal Practice and Software Solutions at Guidepost Solutions 
LLC, an immigration investigation and compliance firm. Ms. Wood 
served as the Assistant Secretary of the Department of Homeland 
Security at Immigration and Customs Enforcement, or ICE, for 
nearly 3 years. Under her leadership, the agency set new 
enforcement records with respect to immigration enforcement, 
export enforcement, and intellectual property rights. Ms. Wood 
earned a Bachelor's degree at Baylor University and a J.D. cum 
laude from Cornell Law School.
    Mr. David Heyman currently serves as the Assistant 
Secretary for Policy at the U.S. Department of Homeland 
Security, where he focuses on terrorism, critical 
infrastructure protection, bioterrorism, and risk-based 
security. Prior to his appointment, Mr. Heyman served in a 
number of leadership positions in academia, government, and the 
private sector. He was the Founding Director of the Homeland 
Security Program and a Senior Fellow at the Center for 
Strategic and International Studies. Mr. Heyman holds an M.A. 
in International Affairs from Johns Hopkins School of Advanced 
International Studies and a B.A. in Biology from Brandeis 
University.
    Each of the witness' written statements will be entered 
into the record in its entirety, and I ask that each witness 
summarize his or her testimony in 5 minutes or less. To help 
you stay within that time, there is a timing light on your 
table. When the light switches from green to yellow, you will 
have 1 minute to conclude your testimony. When the light turns 
red, that is it. It signals that the witness' 5 minutes have 
expired.
    And it is now my pleasure to welcome all of you and to 
recognize first Ms. Kephart.

  TESTIMONY OF JANICE KEPHART, FORMER SPECIAL COUNSEL, SENATE 
    COMMITTEE ON THE JUDICIARY, FORMER COUNSEL TO THE 9/11 
                           COMMISSION

    Ms. Kephart. Than you. Thank you, Chairman Goodlatte, 
Ranking Member Conyers, for the opportunity to testify about a 
biometric immigration departure or exit system for foreign 
nationals, an issue that spans eight statutes and 17 years.
    With the Terrorist Screening Center tracking 10,000 to 
20,000 suspected foreign terrorists inside the U.S., knowing 
who is coming and who is going is critical to our national 
security and our law enforcement needs.
    The 9/11 Commission did not recommend a name-based exit 
system because it can never fully verify that people are who 
they say they are, nor negate human error. Nine years later, 
this past April, the Commission's biometric exit recommendation 
was justified again when the JTTF lost a critical lead prior to 
the Boston Marathon bombing when terrorist Tamerlan Tsarnaev, 
the lead perpetrator, managed to slip out of the U.S. unnoticed 
because his name was misspelled on the outgoing airline 
manifest to Russia. If a biometric exit had been in place, 
Tsarnaev's departure as a foreign national would have been 
known to the FBI more than a year before lives were lost and 
others changed forever.
    Today, the core issue should not be whether to have or not 
to have a biometric exit system but whether a biometric exit 
system is cost-effective and feasible. My testimony concludes 
that it is.
    As to an air/sea exit, DHS established feasibility in 2009 
when two pilots, one in Detroit and the other in Atlanta, 
concluded, and I quote, ``Overall, the air exit pilots confirm 
the ability to biometrically record the exit of aliens 
departing by air.'' In that pilot, only one in 30,000 persons 
refused the biometric, nobody missed a flight, and more than 1 
percent of those processed hit watch lists.
    Today, feasibility is evident around the world, where at 
least 16 Nations are using biometrics to manage entry and exit 
of foreign nationals. Let me provide a few examples.
    In 2011, Indonesia installed a biometric border solution at 
nine airports and one seaport. Indonesia's largest airport 
handles 10 million international passengers annually. That is 
nearly as busy and second in place to JFK, which handles 12 
million annually. Indonesia's system fuses real-time biometric 
matching with watch-list vetting, all compiled into one person-
centric file that eliminates fraud. That was done in 6 months.
    New Zealand just rolled out its second generation of 
biometric borders at its largest airport, Auckland 
International, where immigration processing and boarding passes 
are combined into one single step.
    Both Argentina and Nigeria are implementing biometric 
borders now, and Nigeria is doing it with the U.S. help.
    So while I commend the work CBP is doing to begin testing 
of an air biometric exit in January, that still means we lag 
behind the rest of the world in using cutting-edge, efficient 
biometric solutions to manage both entry and exit.
    Moving on to cost, a careful analysis shows that first-year 
implementation costs for all air and sea ports, even assuming 
cost overruns of 50 percent, would range from about $400 to 
$600 million. These numbers are derived from DHS' 2008 
Regulatory Assessment on this exact issue, but my numbers are 
six times lower because of newer, faster, better solutions that 
require no airport infrastructure changes, no air carrier 
involvement, and require little manpower to operate. With a 
little ingenuity, implementation can be budget neutral.
    One solution is to simply increase visa and security 
application fees by $10 on the 40 million foreign visitors that 
come by air. That is not asking a lot when Brand USA, by law, 
gets $10 per applicant now to promote tourism. This alone would 
generate about $400 million, enough to probably cover most, if 
not all, of air exit deployment.
    Let me turn to land borders, which I know is of great 
interest to the Committee. A more nuanced approach is necessary 
here, but I think it is doable. Step one is pretty easy. For 
pedestrians at land borders, replicate the air/sea solution 
inside land ports. That is quick.
    Step two, enable those truckers and individuals already 
enrolled in Trusted Traveler programs that exist at the 39 
busiest ports of entry and represent 95 percent of crossings to 
use their Trusted Traveler cards not just for entry but for 
exit too. That would mean replicating Trusted Traveler for 
entry to exit lanes, a quick and proven solution already in 
place that folks understand and works pretty well.
    Step three is to basically replicate a Trusted Traveler 
into sort of a trusted everyone where you are replicating the 
Trusted Traveler technology used in the cards into visas, 
border crossing cards, and other travel documents over time. 
Verified departure would be recorded and relayed to the 
arrival/departure systems.
    On the northern border, DHS could leverage the good work of 
the shared biographic system with Canada that David will 
testify about and worked so hard on. The goal would be to treat 
land border exit as close as possible to Trusted Traveler entry 
to speed commerce, meet the statutory requirement, with proven 
cost-effective technologies that already exist on the land 
border.
    I hope that helps. Thank you, and I am happy to take your 
questions afterwards.
    [The prepared statement of Ms. Kephart follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Goodlatte. Thank you, Ms. Kephart.
    Mr. Albers, welcome.

    TESTIMONY OF JAMES N. ALBERS, SENIOR VICE PRESIDENT OF 
             GOVERNMENT OPERATIONS, MORPHOTRUST USA

    Mr. Albers. Good morning, Mr. Chairman, Ranking Member 
Conyers, other distinguished Members of the Committee. Thank 
you for having me here today. I greatly appreciate it. As you 
heard, I work for MorphoTrust, which is one of the leaders in 
the biometrics industry. I have been working in the biometrics 
industry for 11 years, about as long as there has been a 
biometrics industry.
    I am going to focus as a member of industry on the 
technology and the state of the technology that is out there 
right now, and I would basically like to make three points, 
some of which Janice already made very well. Biometrics will 
offer superior results when compared to biographic only. Costs 
for implementation, integration, operation and maintenance are 
much lower than they were a few years ago. And this situation, 
this solution is well proven around the world. Multimodal 
biometrics is in play at a number of borders and airports 
throughout the world.
    Biometric exit offers greater security than biographic 
only. Biographic data, such as a person's name, date of birth, 
are all vulnerable to fraud. This information and documentation 
can be falsified and stolen. Biographic information is also 
inconsistently presented around the world. We are all familiar 
with birth dates going day/month/year, backwards. Names can be 
presented the same way, and in our culture, first/last/middle. 
Biographic information, biographic data is fraught with errors 
because it depends on human collection, as opposed to biometric 
data, which is based on NIST and international standards and is 
collected using robust, highly reliable collection technology.
    Biometric exit controls can provide a higher degree of 
identity assurance than biographic exit controls alone. 
Furthermore, this can be done in a cost-effective manner 
without disrupting operations at airports, seaports, and other 
ports of entry and exit.
    As far as costs are concerned, I believe that the $3 
billion-plus cost estimate in the 2008 report commissioned by 
DHS for implementing a biometric exit system at airports and 
seaports is out of date and an order of magnitude too high. 
Since 2008, biometrics has moved into the commercial arena, and 
the costs associated with biometric capture devices has dropped 
dramatically, while the convenience and accuracy of these 
devices continues to improve.
    I recommend a multimodal biometric solution which has 
already been implemented throughout the Federal and some state 
governments. The Department of Defense uses multimodal 
biometrics--that is face recognition, fingerprint, iris 
recognition, and a fusion algorithm--as standard operating 
procedure. The FBI has used fingerprints for more than a 
century, and the next-generation identification program is now 
adding face recognition and iris recognition. The State 
Department runs the largest facial recognition database in the 
world. There are over 100 million images in there and the visa 
database, including many of those folks that we are talking 
about that overstayed their visas.
    I believe that DHS should change the collection process and 
collect additional biometrics from visitors: fingerprints for 
sure, like we do now; high-quality face images that can be used 
with face recognition systems; and iris images compliant with 
NIST standards. Collecting multiple biometrics at the time of 
entry will provide CBP with more options upon exit. DHS 
agencies could then take advantage of the relative benefits of 
each biometric identifier and method of capture such as 
accuracy, passenger throughput, convenience and cost. 
Fingerprints would continue to be collected, allowing for a 
comparison to IDENT and to NGI, while face and iris images at 
the time of entry could be collected and used against the FBI, 
State Department, and DOD databases.
    This solution is proven and low cost. Today, more than 70 
international airports throughout the world have biometrically-
enabled systems. My company alone has deployed over 150 eGate 
systems across eight countries within 24 international 
airports, processing over 1 million passengers per month. Other 
companies in the industry have done the same thing. These 
biometrically-enabled systems use a variety of biometrics--
fingerprint, face recognition, and iris recognition--to verify 
the identity of the traveler quickly and efficiently, with a 
very high accuracy.
    In conclusion, I would like to say that MorphoTrust speaks 
for the biometric industry when we say that a fully functioning 
biometric exit system is affordable, can be implemented today 
without disrupting legitimate trade and travel. We stand ready 
to work with Congress, the Department of Homeland Security and 
other stakeholders to develop a biometric exit program that can 
be deployed within a short period of time and at a reasonable 
cost, thus making Americans safer while improving the traveler 
experience.
    Thank you for the opportunity to address the Committee 
today on these issues. I look forward to your questions.
    [The prepared statement of Mr. Albers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Goodlatte. Thank you, Mr. Albers.
    Ms. Wood, welcome.

 TESTIMONY OF JULIE MYERS WOOD, PRESIDENT, COMPLIANCE, FEDERAL 
      PRACTICE AND SOFTWARE SOLUTIONS, GUIDEPOST SOLUTIONS

    Ms. Wood. Thank you so much, Chairman Goodlatte, Ranking 
Member Conyers, Members of the Committee. I appreciate the 
opportunity to testify this morning about the enforcement 
implications of an entry-exit system.
    Efforts to ensure that we secure the border and reform our 
immigration process must include efforts to transform overstay 
enforcement and do it more effectively, and exit is a big piece 
of this.
    Although the lack of an adequate exit program was 
highlighted by the 9/11 Commission and mandated by Congress 
over many years, DHS struggled with how to effectively 
implement it, and really focused on biographic methods and 
refinement of data. Although this was very frustrating to law 
enforcement interests, both inside and outside of DHS, it was 
somewhat understandable given cost restraints, capacity, and 
the technological limitations of the time.
    Now, however, biometrics are part of mainstream industry 
and security efforts. They are available on everything from 
your iPhone and utilized in locations as diverse as casinos and 
amusement parks. Biometrics should also be utilized to 
determine exits of foreign nationals from the United States.
    While a biographic exit program is better than no program 
at all, the lack of biometrics leaves a significant gap for 
criminals and others to abuse. Instant verified biometric exit 
data would be extremely useful to law enforcement both for 
terrorism cases and for routine immigration enforcement. As the 
Chairman noted, significant national security risks often try 
to leave the country unnoticed. Biographic-centered systems do 
little to prevent these determined individuals from escaping 
the Joint Terrorism Task Force or other law enforcement 
efforts.
    ICE's routine enforcement efforts also would be enhanced 
with an effective biometric exit program. Currently there are 
only 300 dedicated counter-terrorism compliance enforcement 
unit agents. They prioritize leads based on information 
provided from the law enforcement and intelligence community. 
But because we don't have an effective exit system, oftentimes 
these ICE agents are chasing leads for individuals who have 
already left the country when they could be spending time on 
higher-priority individuals who are still here.
    I have to note, however, and despite the many benefits of 
exit, the overall value of a robust biometric system is greatly 
diminished if the enforcement agencies will not enforce 
violations that such a system identifies. To ensure that we 
have successful immigration reform, a commitment to build exit 
must also be accompanied by a commitment to enforce the law. 
ICE HSI currently spends only 1.8 percent of its enforcement 
hours on enforcement against overstays, and with improvements 
in the biographical data provided to law enforcement, ICE has 
been getting more and more leads every year. Yet, the number of 
cases that ICE deems worthy of opening for investigation 
continues to go down.
    In 2005, for example, 13,000 non-priority leads were sent 
to ICE, and the agency opened 4,600 for investigation. In 2012, 
over 212,000 non-priority leads were sent to ICE, but they 
opened only 2,800 investigations.
    Other parts of ICE, including ERO, could have logical 
responsibility for overstay enforcement. But as they recently 
told the GAO, few records of potential overstays meet ERO's 
priorities--not HSI's priorities, not ERO's priorities. 
Overstays are no one's priorities, and when they are no one's 
priorities, they become everyone's problem because they 
undermine the integrity of our overall immigration system.
    To put it somewhat in perspective, if you think about 
20,000 border patrol agents, they are focused on only 60 
percent of the problem. We have 300 ICE HSI agents to focus on 
the other 40 percent. Such a low level of enforcement suggests 
that even with biometric exit in place, the number of overstays 
may continue to grow unabated due to a lack of enforcement, 
resources and direction.
    Enforcement, of course, always requires resources and 
appropriate prioritization, and any immigration reform bill 
must include appropriate resources to address these needs so 
that we have an immigration system that works, so that the 
benefit of a biometric exit does not surpass the immigration 
components that it needs most to do its job.
    Thank you so much for the opportunity to testify before you 
about the enforcement implications, and I would be happy to 
answer any questions after the testimony is completed. Thank 
you.
    [The prepared statement of Ms. Wood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Goodlatte. Thank you, Ms. Wood.
    Mr. Heyman, welcome.

 TESTIMONY OF DAVID F. HEYMAN, ASSISTANT SECRETARY, OFFICE OF 
          POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Chairman Goodlatte, Ranking Member 
Conyers, and distinguished Members of the Committee. I 
appreciate the opportunity to be here this morning.
    We want to talk about DHS' role in implementing an exit and 
entry system. I also want to dispel a few myths about biometric 
entry and exit.
    We all agree that a fully functioning entry-exit system is 
crucial for immigration control, law enforcement and national 
security. Tracking the arrival and departure of foreign 
visitors to the United States is important for enforcing the 
terms of admission for non-immigrants, identifying and 
sanctioning overstays, and for managing our visa waiver 
program.
    To function properly, a system needs a number of things. It 
needs to capture arrival and departure information of travelers 
coming to and leaving the United States. It also needs to 
record immigration status changes, determine if criminal 
warrants exist, and identify overstay priorities for 
enforcement action.
    The first myth I want to dispel is the notion that if we 
aren't using biometrics on the departure, we don't have a 
working entry-exit system. That is not true. The fact is that 
DHS today manages a fully functioning entry-exit system in the 
air and sea environments using a combination of biometric and 
biographic components. The system was built over the last 
decade. The Department collects biometric and biographic 
information on entry and biographic information on all 
individuals who are physically on a departing airplane or sea 
vessel through our Advanced Passenger Information System, or 
APIS.
    In 2010, DHS began deployment of enhancing the exit system, 
which improved our ability to automatically match the 
information from an individual's passport or other travel 
document upon arrival and departure, information that can be 
captured electronically so we take human error out of the 
system.
    As a result of these efforts, since April of this year, the 
Department is now able on a daily basis to identify and target 
for enforcement action those who have overstayed their period 
of admission and represent a public safety or national security 
threat. I want to repeat that. On a daily basis now, the 
Department identifies and targets those who have overstayed 
their period of admission. This is a significant improvement 
over our prior capabilities. And while more work needs to be 
done to integrate a biometric component into this system, it is 
incorrect to say the Department lacks a functioning entry-exit 
system just because we have yet to implement biometrics into 
the exit processes.
    The second myth is that biographic-centered exit systems do 
little to prevent determined individuals from escaping law 
enforcement. Faisal Shahzad, the would-be Times Square bomber, 
is an example of a determined individual who tried to flee the 
country after his failed bombing attempt, but our exit system 
prevented him from escape. Some hours after his vehicle bomb 
failed to detonate in New York, Shahzad bought a one-way ticket 
to Pakistan. When CBP ran the APIS manifest looking for who was 
departing the U.S. on that flight, Shahzad was identified, 
matched, and taken off the flight into custody.
    The third myth is that DHS is resisting calls to implement 
a biometric solution on exit. DHS knows full well the 
congressional mandate requiring biometric exit, and we are 
working toward it. DHS has piloted various biometric exit 
programs in order to determine when a biometric exit system 
will be cost-effective and feasible. These have been done in 
previous Administrations as well as this one. Through these 
pilots, the Department concluded that implementation would 
require over $3 billion in investments. If implemented 
prematurely, particularly without the support of airlines, we 
would see disruptions to passenger travel and likely drive the 
costs higher.
    Right now, however, the Department's Science and Technology 
Office is leading an APIS project called Air Entry Exit 
Reengineering Project. The purpose of this project is to 
analyze, develop, and test-pilot and evaluate integrated 
approaches to biometrically confirm the departure of non-U.S. 
citizens at U.S. airports. S&T and our CBP are also 
establishing a physical test facility that mimics real-life 
port scenarios. That facility will be operational in early 2014 
and will be used to test the latest technological advancements 
which my colleagues here on the panel have testified to in 
biometrics to match departure information arrivals, and I would 
invite anyone here to come see the operation once we have it up 
and running next year.
    Let me conclude by saying that despite significant 
challenges, DHS has implemented and currently manages a full 
functioning entry-exit system in the air and sea environments. 
The Department is mindful that any exit system must confirm the 
identity of foreign nationals, ensure the individuals depart 
the United States, facilitate enforcement, while also not 
causing disruptions to the flow of passenger travel or airline 
and airport operations. DHS remains committed to implementing a 
biometric exit system that achieves all these goals and will 
continue to make substantial progress in the year ahead.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Heyman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               __________

    Mr. Goodlatte. Thank you, Mr. Heyman.
    I will begin the questioning with a question to you 
regarding your comments there about the exit systems that are 
administered.
    You indicated that you have a biographic system. Isn't it 
true that more than a million people are unaccounted for in 
that system as to whether or not they have exited the country?
    Mr. Heyman. The number that you are referring to dates back 
to 2 years ago when there was an identification of backlog in 
our overstay processing, and it was about 1.6 million at that 
time.
    Mr. Goodlatte. Let me ask you about your land exit system. 
Do you collect biographic data from individuals departing the 
country by land ports?
    Mr. Heyman. There is no infrastructure on the border to 
collect biometric information. On biographic, we have a pilot 
in the northern border right now with Canada that allows us to 
receive data from Canada every time somebody leaves the United 
States and enters Canada. An entry in Canada counts as an exit 
in the United States. And so we are now piloting that with 
great effect.
    Mr. Goodlatte. Well, I am glad you have that pilot. With 
regard to the southern border of the United States, I take it 
that even though that has a very large percentage of the total 
number of people who exit the United States each day, there is 
no biographic or biometric data collected.
    Mr. Heyman. We are in conversations with the Mexican 
government to do something similar to what we are doing on the 
northern border, and we have begun some pilots to look at the 
biographic system down there as well. Thank you.
    Mr. Goodlatte. Good. Thank you. And I hope you will keep 
the Committee informed of that effort.
    Mr. Heyman. Absolutely.
    Mr. Goodlatte. Ms. Wood, thank you very much for your 
testimony. I was struck by your comment that while 35 to 40 
percent of people who are unlawfully present in the United 
States are overstays who enter the country legally, that ICE is 
only spending 1.8 percent of its man hours in terms of dealing 
with that 35 to 40 percent of the illegal immigrants in the 
United States. It seems to be a very disproportionate ratio 
there.
    Ms. Wood. It certainly does. I mean, ICE has a lot of 
statutes that it has to enforce. This number, 1.8 percent, 
comes from evidence and information they provided to GAO during 
the GAO review. You would think that perhaps ERO, which is 
another part of ICE, would also enforce against overstays, but 
they have said they don't have the funding to do it and that 
those individuals also are not priorities.
    So when you think about how do we go forward and get a 
workable immigration system, someone has to address kind of the 
problem of people who will continue to overstay.
    Mr. Goodlatte. Thank you.
    Mr. Albers, is a biometric exit system feasible, and can it 
be completed at land ports, including vehicles, which I 
understand is the greatest challenge, within a reasonable 
amount of time?
    Mr. Albers. I believe that a biometric exit system for air 
and sea could be completed within 2 years. I think there are 
challenges with land. I will tell you that my company and a lot 
of the biometrics industry really started in Iraq and 
Afghanistan, and we have proven that biometrics works in the 
toughest of environments over there. So I feel very strongly 
that DHS is proposing a pilot program and then rolling 
biometric controls onto exits at land borders over a period of 
time. I think that is a wise approach. But I do think it can be 
done.
    Mr. Goodlatte. And what has changed in terms of the 
technology in the 17 years since we first asked for this and 
the 9 years since we first asked for it to be biometric that 
makes it more feasible today?
    Mr. Albers. Well, I am glad you asked that question, Mr. 
Chairman. When I first got involved in this business, I worked 
for a company called Sarnoff, which was the research facility 
for RCA for years, and we developed the first Iris on the Move 
program. That program probably cost $2 million, and the first 
prototypes that rolled off the platform there were about 
$250,000 each. Now, they were put together by a bunch of 
Ph.D.s, so it was pretty expensive.
    What has happened in the 7 years since that time is a 
number of companies, including Aoptics, which is in Ms. 
Lofgren's district, have developed Iris on the Move and Face on 
the Move systems that you can buy for $10,000 or $15,000. So 
not only has the technology gotten way better than it was 7 
years ago, it has gotten a lot cheaper.
    Mr. Goodlatte. Thank you.
    Ms. Kephart, you were on the staff of the 9/11 Commission, 
and that commission recommended ``the Department of Homeland 
Security, properly supported by the Congress, should complete 
as quickly as possible a biometric entry-exit screening 
system.'' Why did the Commission make that recommendation?
    Ms. Kephart. When we were investigating the terrorist 
travel patterns, which was my job on the commission, we learned 
in our work with others on the commission staff that there were 
two hijackers in August of 2001 who were watch-listed. We knew 
they had come into the country, but we did not know where they 
were at the time of late August 2001. The FBI could not figure 
out from immigration records if they had ever left. They came 
under the assumption, after about a week of work and having a 
lot of other investigations to do, that it wasn't worth their 
time because they didn't know whether they were here or 
overseas and figured they had left. They indeed had not left, 
and 9/11 happened.
    So, you know, not to put it all on those two watch-list 
items, but that was the reason that we looked at name-based and 
the fraud. And remember, too, the hijackers had about 300 
different aliases. They had any means of name change to use. 
They had gotten new passports and new visas before they came to 
the United States. There were so many ways to trick the system 
into entry-exit data that was not exactly real.
    So we decided and the commissioners decided to take up the 
recommendation that you need to use a physical verifier that is 
fraud-proof, and that is why we recommended the biometric exit.
    Mr. Goodlatte. Let me ask you one more question, if I may. 
You recently issued a report entitled ``Biometric Exit 
Tracking: A Feasible and Cost-Effective Solution for Foreign 
Visitors Traveling By Air and Sea.'' In this study, you 
discussed numerous statutes that have been in place since 1996 
mandating an exit system. Given that there are numerous 
statutes in place, what, if anything, do you think can be done 
legislatively in order to ensure biometric exit system is 
implemented at all air, land, and sea ports?
    Ms. Kephart. Thank you for that question. It is something I 
spent quite a bit of time on when I was special counsel over in 
the Senate a few months ago, working on the immigration reform 
legislation and really thinking about that question hard.
    I don't think a lot needs to be done. There are eight 
statutes on the books already. The 2004 Intelligence Reform Act 
lays out the mission and requirements of the exit very, very 
well. What needs to be done, however, is there are some 
contradictions that are left because there are so many statutes 
on the books.
    So one of the biggest contradictions is the 2013 Homeland 
Security Appropriations Act requires that Customs and Border 
Protection implement biometric exit, which I think is the right 
way to go. The 2007 Act requires that the air carriers 
implement the requirement. That has caused a tremendous amount 
of problems. There is no need for the air carriers to be 
involved with it.
    So, one, air carriers need to be out of the equation 
statutorily. Number two, the airports are a stakeholder in this 
and need to be in the legislation proactively. Number three, we 
need to fund it. You can't expect DHS to do this without either 
authorization for fees or an appropriation. It is not fair to 
them. And number four, you need to have a deadline, I think, 
going forward, because we have too many statutes on the books 
where the deadlines have already been overrun by years.
    So a reasonable amount of time to get this done, and I 
think air and sea is pretty quick, and land requires a little 
more time and effort.
    Mr. Goodlatte. Thank you very much.
    The Chair recognizes the gentleman from Michigan, Mr. 
Conyers, for his questions.
    Mr. Conyers. Thank you, sir.
    I thank all of the witnesses.
    Secretary Heyman, I wanted to get your understanding about 
the bipartisan immigration reform bills that are still pending 
in Congress. Now, the other body, the Senate, has already 
passed their immigration bill, and the House bill, one House 
bill has 191 co-sponsors, but we haven't had a hearing yet on 
it. And both bills contain provisions requiring the Department 
to make progress implementing such systems.
    What I am wondering is how do you think this comprehensive 
entry-exit system fits into the larger scheme of comprehensive 
immigration reform?
    Mr. Heyman. Thank you, Mr. Conyers. The comprehensive 
immigration reform is a critically important piece to our 
security, to our immigration system, and frankly in the context 
of this conversation and the concern about overstays, perhaps 
one of the biggest acts that Congress could do is to pass it so 
that we take away the prospect of overstays and eliminate that 
to the extent that we can, or at least mitigate it compared to 
where we are today, which is obviously a concern of this 
Committee and the reason why we are having this hearing.
    So in terms of the entry and exit system, we are going to 
continue to move forward with that. There are statutes on the 
books to do that, and in the air and sea environment we have 
made substantial progress. We will continue to do that, as I 
have testified. I do think that taking away the magnet to the 
United States, ensuring that we have greater border security, 
elements of the comprehensive immigration reform that the 
Senate has passed would be helpful to helping reduce overstays.
    Mr. Conyers. Thank you.
    Ms. Myers Wood, I am not sure if you are accurate in saying 
that the Times Square bomber evaded a biographic-only exit 
system when, in fact, he was apprehended on the runway, taken 
into Federal custody. And he was apprehended, it seems to me, 
because the passenger manifest was provided by the airline to 
Customs and Border Protection, and his name came up in a search 
of Federal databases. So I interpret that as a biographic exit 
success story. Would you agree with me on my analysis of this 
particular situation?
    Ms. Wood. Yes, certainly I think we were very fortunate 
that we were able to apprehend him on the runway, and that was, 
in fact, because of the biographic systems. I think earlier 
than the runway, if it was biometric, we would have caught him 
earlier than the runway. But I would agree with you, we were 
very fortunate that we caught him on the runway, and the 
biographic systems, law enforcement uses them every day, and 
they catch a lot of individuals, and DHS is working hard 
through the pilots and other things to improve those systems.
    Mr. Conyers. Mr. Secretary, again, what steps has Homeland 
Security taken to enhance the U.S. exit systems for purposes of 
immigration enforcement and enhancing national security?
    Mr. Heyman. Thank you, Congressman. Just on your last 
question, biometric would not have helped Shahzad. He was a 
U.S. person, U.S. citizen, and therefore would not have been 
part of the biometric system as they are not screened.
    Mr. Conyers. Thank you.
    Mr. Heyman. The improvements that we have done over the 
last 3 years, in 2010 we made a decision to enhance the 
biographic system. What did not exist until April of this year 
was the ability to automate the linkages between the numerous 
systems that must be accounted for to determine if you have 
overstays and to determine whether they are national security 
concerns. Whether it is a change in status because of 
immigration changes and linked to the USCIS systems, whether it 
is a review of a national security concern and linking to our 
CBP targeting capability, all of those linkages were put in 
place over the last 2 years. Our matching algorithms were 
improved. We have piloted the land border that I mentioned.
    And actually, all of this came out of--the Chairman asked 
the question about the overstays. This all came out of our 
review of those overstays, the backlog, the 1.6 million, and we 
recognized in doing that review that the automation and 
increased linkages of the databases so that we could do real-
time overstay identification, tracking and sanctioning, that 
was the beginning of that, and it laid a foundation for the 
entry-exit system that we now have in place as of April of this 
year.
    Mr. Conyers. Thank you very much for your comments.
    Mr. Goodlatte. The Chair now recognizes the gentleman from 
North Carolina, Mr. Coble, for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us, folks.
    Mr. Albers, I was going to ask you about the feasibility of 
the biometric system. I think you and Chairman Goodlatte pretty 
well discussed that, so I won't revisit that.
    Ms. Wood, what problems do you foresee if legalization 
occurs without biometric exit in place?
    Ms. Wood. I think that without biometric exit, ICE and CBP 
and other enforcement agencies are still going to have kind of 
continued difficulty both in their routine enforcement and in 
identifying terrorists and other individuals that are trying to 
leave the country. I do think DHS has made a lot of progress, 
but I think given the advances in technology so wonderfully 
highlighted by the other witnesses here, I think DHS is at a 
point now where they have to move forward and give law 
enforcement really what it needs so that we can keep our 
country secure.
    Mr. Coble. Thank you, Ms. Wood.
    Ms. Kephart, you and the Chairman may have discussed this 
one. I was going to ask you about if you believe that complete 
biometric exit of all ports of entry would be a useful national 
security tool. I think you may have addressed that earlier, did 
you not?
    Ms. Kephart. Not head-on, sir, so I would be happy to 
address it again if you would like.
    Mr. Coble. How about trying it?
    Ms. Kephart. All ports of entry is an interesting question. 
My view is, and the thing that I have always emphasized in my 
work since I worked on the 9/11 Commission, and even before 
that when I was doing terrorist work prior to the 9/11 
Commission, is that terrorists will use, like any criminal, 
will use any vulnerability that there is in the system to get 
through. So as long as there is something open, they will use 
it.
    So to the extent that we can build out, we certainly have 
our priorities on biggest ports of entry, for example, that we 
need to do first. But as we move it out and as we see the 
expense and we are able to level that expense out, I think you 
need to include every port of entry down the road. I don't know 
if we can do that in 2 years, every single one, but I think all 
air and sea you can. I am not sure about land, but all air and 
sea you can, for sure.
    Mr. Coble. Thank you, Ms. Kephart.
    Mr. Chairman, I am going to yield the balance of my time to 
the gentleman from Texas.
    Mr. Smith of Texas. I thank my friend from North Carolina 
for yielding.
    Let me say at the outset that, in my view at least, we are 
simply not going to have other immigration reforms until we 
secure our borders and secure the interior. So there is, in my 
view, good reason to have bipartisan support for an entry-exit 
system. And I am encouraged by the fact that all of our 
witnesses today seem to be looking for ways to implement such a 
system rather than looking for reasons not to implement such a 
system.
    Ms. Kephart, let me just follow up on your last response 
and just reemphasize the point that you have already made, and 
that is we are simply not going to be able to either deter or 
detect the visa overstayers unless we have an entry-exit system 
at all ports of entry, including land, air and sea. Is that 
correct?
    Ms. Kephart. Yes, sir.
    Mr. Smith of Texas. And then it hasn't been too long since 
the Department of Homeland Security estimated, for example, 
that on sea and air, the cost would be something like $3 
billion. I think we now, with modern technology, have really 
gotten to the point where it is about one-sixth of that cost, 
several hundred million dollars, not several billion dollars. 
How did we get to that point? What is it that is reducing the 
cost of the entry-exit system, whether it be air, land or sea?
    Ms. Kephart. There are a number of factors, and I think Mr. 
Albers can help me with this as well.
    Mr. Smith of Texas. I am going to ask him next, right.
    Ms. Kephart. Yes. There are a number of factors. The 
solutions right now are much less expensive, and they are much 
better than they were a number of years ago. This is a young 
industry that hasn't fully matured yet, and it is maturing, so 
you have lots of opportunity.
    There is another piece of it, too. Even in the 2009 pilot 
that worked extremely well, you had about 60 seconds per 
person, whether it was TSA or CBP, conducting the biometric. It 
took about 60 seconds. Now fingerprints, iris, can be done in 2 
seconds. You can do multimodal face-hands-iris in combination 
in 20 with a travel document, 20 seconds. So it is very quick.
    Think about the time you spend in a TSA line and all the 
manpower that goes into that, versus that quickness. A lot of 
these are kiosk or eGate solutions. If you decide to go that 
route, the manpower costs come down substantially. That is 
where the hub of your cost is going to be, is on the manpower. 
The 2008 assessment had both air carriers and CBP doing work on 
this. Now, if you don't have the air carriers and you only have 
one-eighth the number of CBP folks in your best possible 
scenario of an eGate, that is significant reduction in cost.
    So you have a lot of networking and et cetera, you don't 
have to go through the air carriers to bring the data in. You 
are going to go directly government to government. That is also 
a cost saving. There are lots of places and nooks and crannies 
in this 2008 assessment where the costs really have come down 
significantly.
    Mr. Smith of Texas. Okay. Thank you, Ms. Kephart.
    I am going to yield back and then resume my questions.
    Mr. Coble. I reclaim and yield back. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chair.
    Mr. Heyman, let me nail down the amount of money it would 
cost to get this program up and running. We have had a couple 
of different numbers. Is the number $3 billion?
    Mr. Heyman. The numbers that we are citing that everybody 
is using to evaluate are the numbers based upon a 2009 study. 
So the reason we stood up a test facility is to actually 
evaluate what the real costs are today. Our goal has always 
been to get those costs down.
    What is really important for Congress to appreciate is it 
is not just putting technology someplace and making it work. It 
is a concept of operations which we need to test. What 
technology are we talking about? Are we talking about iris? Are 
we talking about fingerprinting? Are we talking about facial 
recognition? And how is it used?
    Mr. Scott. I was looking for a number.
    Mr. Heyman. We don't have an up-to-date number because 
technology costs have gone down, but the labor costs may be 
maintained, and how you put that technology in the facility 
makes a difference.
    Mr. Scott. Are you anticipating a universal coverage, not 
just the high-volume ports and airports and what-not? I think 
Ms. Kephart just suggested if it is not universal, if it had 
some holes in it, that is where people are going to go.
    Mr. Heyman. You are going to want to put it in air 
terminals at every departure gate, I believe, where there is an 
international departure. If you don't put it in the departure 
gate, one of the proposals here is to do it at the TSA check-
in. People can come in to the check-in and leave the departure 
area without actually departing the United States, and you 
don't have assurances.
    So again, the concept of operations is really important. So 
departure gates, and they are distributed across airports. So 
you can't just put 25 eGates in one place and have one guy 
watching it. Our airports were not set up for exits, so they 
are distributed across the entire airport. You are going to 
have to have people manning those.
    Mr. Scott. How accurate are the biometric screens? Do you 
get false positives or false negatives?
    Mr. Heyman. So the technology has been significantly 
improved since our pilots four or 5 years ago. False positives 
are down. Again, it depends upon which technology you choose, 
whether it is facial recognition, which are a little bit higher 
and problematic, versus iris scans or fingerprinting, where 
false positives are much lower.
    Mr. Scott. Can you implement this plan without adversely 
affecting the flow of commerce at ports?
    Mr. Heyman. We wouldn't want to implement it any other way, 
but that is the question. What is your concept of operation? 
Once we find out what technologies work best, we have to put 
them in play, and the test facility will allow us to do that, 
to check the flow rates, to check the ease of use, to determine 
if you are putting it on the jetway, if vibrations are setting 
off cameras so that you are not getting accurate reads. The 
environment matters, the operation matters, and so that is what 
we are going to do the test facility for next year.
    Mr. Scott. You mentioned you are working with Canada and 
will be working with Mexico on coordinating. Are you using any 
other foreign ports of demarcation? I know with port security, 
we are screening some of the containers at the foreign ports. 
Are you thinking about doing that with the biometrics?
    Mr. Heyman. So we are talking about people leaving the 
United States across the land border. They either do it by 
walking across or driving, principally. There is no 
infrastructure right now on our southern border, and in some 
senses on our northern border, for either fingerprinting 
somebody or getting their iris. You would have to get out of 
the car to do it, which would slow down the entire system; or 
you would have to develop something, whether it is a toll booth 
concept or otherwise. But even with a toll booth concept, you 
don't want people sneaking into the car and not knowing if it 
is the person holding the technology. So if you are doing a 
fingerprint, it has to be the right person holding the 
technology. And two, are they hiding? Who is going to be 
watching to make sure somebody is not hiding and trying to 
leave the country?
    Mr. Scott. What biographic and biometric information is 
gathered?
    Mr. Heyman. Where, sir?
    Mr. Scott. Coming or going.
    Mr. Heyman. We cover all departing air and sea ports. We 
capture all biographic information. We capture both biographic 
and biometric on all entry to the United States.
    Mr. Scott. What does ``biographic'' mean? What do you mean 
by ``biographic''?
    Mr. Heyman. Biographic, like a travel document, a visa, a 
passport. The passports these days are now secure passports so 
that you can scan them in with a machine and take the human out 
of the equation and have the biographic information much more 
accurate.
    Mr. Scott. And biometric, are you talking about 
fingerprints and iris? Anything else?
    Mr. Heyman. On biometric, we are looking at------
    Mr. Scott. Facial?
    Mr. Heyman [continuing]. Facial, vascular. Vascular is your 
blood capillary networks that are unique. They are like a 
fingerprint. But principally, the key ones are iris, 
fingerprints, and facial recognition. People should realize, 
though, that if we do decide to go with something other than 
fingerprints at the exit, that will have a significant impact 
on costs on entry because you will not have--remember, we do 
fingerprinting on entry, and if we are deploying the new 
technologies on exit, we will have to go back to State 
Department and consular affairs around the world where they 
capture fingerprints to do another capture for making sure that 
we link those biometrics using the new technology.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Before the Chair recognizes the gentleman from Texas, 
actually let me recognize him and ask him if he would yield to 
me for a second, and then ask him to come and take the Chair so 
that I can attend to a meeting outside. But if you would yield 
to me------
    Mr. Smith of Texas. I would be happy to yield to the 
Chairman.
    Mr. Goodlatte. I just want to set the record straight on a 
couple of things. First of all, and I am sorry that the Ranking 
Member is not here because he mentioned one piece of 
legislation that has been introduced in the House and said that 
we had not held a hearing on that particular piece of 
legislation. But I want the record to be very clear that we did 
hold a hearing in this Committee, the full Committee, on the 
Senate immigration bill, and the House bill is based upon--in 
fact, I think it is virtually identical to the Senate bill, 
with the exception of the addition of provisions from one bill 
passed out of the House Homeland Security Committee, which is 
not the jurisdiction of this Committee, with the exception of 
some parts of it, including the entry-exit visa system, which 
we share jurisdiction, and of course we are holding a hearing 
on that today. So I want to be very clear on that issue.
    Secondly, I just want to note for the record that what we 
are talking about here are foreign nationals that we need to 
keep track of. So while it is commendable that Mr. Shahzad was 
apprehended on the runway in that particular case, being a 
United States citizen, that is a different system and a 
different issue than it is for us to know of the several 
million people who are illegally present in the United States, 
who they are, where they are, and why they are remaining here 
after their visas have expired, and a biometric entry-exit 
system will help to solve that problem and assure that we are 
more comprehensively addressing the problem of people who are 
unlawfully present in the United States than what is currently 
being done by the Department, and we encourage their continued 
work.
    But it is far from complete and far from a situation where 
we could say that we would not be making the same mistake we 
made in 1986 when, on the promise of a lot of new enforcement 
measures, we granted an easy pathway to citizenship to nearly 3 
million people and then found that those enforcement measures 
never took effect. In fact, in spite of additional legislative 
efforts over that period of time, we still do not have those 
appropriate enforcement measures, and therefore this hearing is 
about how to avoid the problem that was created by the 1986 law 
and never addressed.
    And now I will ask the gentleman to come here and take the 
Chair and use his time.
    Okay, Mr. Bachus is going to take the Chair, and he will 
yield to the gentleman from Texas.
    Mr. Smith of Texas. Okay. Thank you, Mr. Chairman. I will 
proceed with my questions.
    Mr. Albers, let me direct my next question to you. Thank 
you for your very expert testimony. This goes to the subject of 
the experience of airports in other parts of the world, and you 
have some knowledge of that. Other airports around the world 
have introduced the biometric entry-exit system. Have they 
incurred any substantial delays as a result of the biometric 
entry-exit system?
    Mr. Albers. The answer is not to my knowledge. If you look 
at, for example, our program called the Global Entry, that is a 
biometrically-enabled program that speeds people back into the 
country. So we believe that with the introduction of multimodal 
biometrics which could be grabbed even faster than a 
fingerprint, you could actually expedite the process for people 
with that.
    Mr. Smith of Texas. You know what also occurs to me, 
thinking about vehicular traffic where you had those lines, you 
could also have an agent just walking down with a handheld 
device and speeding up the process there as well.
    Mr. Albers. That is actually a very good point. 
Fingerprints still require, for the most part, the people to 
put their fingers down on a sensor. Face recognition and iris 
recognition does not require that. Our company and a number of 
companies are doing face recognition on iOS devices or Android 
devices now so you can do face recognition.
    Mr. Smith of Texas. Oh, that's right.
    Mr. Albers. I think of the restaurants that walk up and 
down using a device like this now to check people in. That kind 
of thing could certainly be done at an airport when there is a 
queue to start expediting people like that.
    Mr. Smith of Texas. Okay. Thank you.
    Let me go to another subject, biograhpics. Both you and Ms. 
Wood have testified to the great disadvantage of relying upon 
biographics. You both agreed that it might generate a high 
incidence of fraud, among other things. Ms. Wood actually said 
it was a threat and a danger to Americans to have that kind of 
entry-exit system.
    I don't know if you want to elaborate on it or not. You 
went into some detail. But the point is, I think, biometrics is 
far superior to biographics.
    Ms. Wood, do you want to comment on that?
    Ms. Wood. Certainly. I think law enforcement needs every 
tool at its disposal to identify those who are trying to harm 
the United States. I want to just clarify with respect to the 
Times Square bomber, I was speaking of just how individuals 
evade biographic data. Certainly, he would not be covered under 
an exit program because that is for foreign nationals.
    I think it is important, as the criminal organizations 
become more sophisticated and the cost of technology goes down, 
the Department continue to evolve and look to see how can they 
use the new technology. I think DHS has actually made a lot of 
progress. If you think about where we were when the Department 
was formed, first two fingerprints, then 10, then working 
along, I think the time is now to look at all these new 
advances in technology and see what we can do, and I think our 
law enforcement agencies need this.
    Mr. Smith of Texas. Okay. Thank you, Ms. Wood.
    Let me go to Mr. Heyman and address a couple of questions 
to you real quickly. By the way, I was at the homeland security 
hearing on this same subject a few weeks ago, and you were not 
the Department of Homeland Security witness, so don't take this 
personally, but it was a rare occurrence for me to hear the GAO 
actually being critical of DHS for not making a good-faith 
effort to implement more entry-exit systems more quickly. In 
fact, the Government Accounting Office said that I think DHS 
could implement them about three times as fast as the testimony 
we heard back then. You don't need to comment on it except that 
I think it can be expedited.
    If I understood you correctly, though, a few minutes ago, 
you said that the Administration was actually identifying a 
fair number of visa overstayers, and if so, it would be roughly 
5 million people in the country who are visa overstayers. What 
percentage of those individuals can you now identify?
    Mr. Heyman. So the changes that we put in place over the 
last two-and-a-half years have allowed us to do a near-real-
time, if not real-time overstay identification tracking and 
sanctioning for enforcement. So on a daily basis, we are 
sending to the field, to our ICE enforcement officers------
    Mr. Smith of Texas. Okay, but my question is what 
percentage of the roughly 5 million people who are overstayers 
are you able to identify today?
    Mr. Heyman. We spent the last 2 years looking at the 
overstay backlog. After going through those 2 years ago, we are 
now current on a daily basis------
    Mr. Smith of Texas. If you won't give me a percentage, can 
you give me a number?
    Mr. Heyman. Well, 100 percent currently. We are 100 percent 
currently able to identify overstays on a daily basis.
    Mr. Smith of Texas. Again, of the 5 million people in the 
country who are overstayers, what number, what percentage can 
you identify?
    Mr. Heyman. We have gone through all of them, all the ones 
that we went through------
    Mr. Smith of Texas. So you know who those 5 million people 
are and where they are?
    Mr. Heyman. 1.6 million we have gone through. Over half of 
those have left the country. Another third of those, I believe, 
were change of status, and------
    Mr. Smith of Texas. So you are saying that of the 5 
million, you can identify 1.6 million of the 5 million? Is that 
what you are saying?
    Mr. Heyman. We have gone through the 1.6 million overstay 
backlog 2 years ago, yes.
    Mr. Smith of Texas. Right, and you know who they are, where 
they are, and their status.
    Mr. Heyman. There are a few that we do not know where they 
are.
    Mr. Smith of Texas. So roughly a third of the people in the 
country who are overstayers you can identify.
    Mr. Heyman. No. We have gone through all of them. We know 
who all of them are now.
    Mr. Smith of Texas. I don't------
    Mr. Heyman. The overstays backlog, the------
    Mr. Smith of Texas. I don't want to go over my time, but I 
don't think we are talking about the same thing.
    Mr. Heyman. Maybe not. I am sorry, sir.
    Mr. Smith of Texas. I am sorry. Okay, my time has expired. 
But it sounds to me like, at most, the figure would maybe be a 
third of the people who are in the country you know who they 
are, where they are, and their status, about 1.6 million.
    Okay, I will let others explore that. Thank you.
    Mr. Heyman. Sorry, Congressman.
    Mr. Bachus [presiding]. Thank you.
    Ms. Lofgren is recognized for 5 minutes for questions.
    Ms. Lofgren. Thank you. I do think that this has been a 
helpful hearing. The testimony you have just given, that you 
can actually for 100 percent you have identified who has left, 
who hasn't left, who is adjusting legally under some other 
provision of law and identified who is a problem. Is that what 
your testimony is, sir?
    Mr. Heyman. So, yes. On a daily basis, we are now able to 
identify who has overstayed. Now, there are in-country 
overstays and out-of-country overstays. What we send to the 
field is the folks who we believe are in-country overstays who 
are national security and public safety risks, and we go after 
those folks.
    Ms. Lofgren. Okay. I really don't have a lot of patience 
with the airline industry's resistance to this. I mean, I know 
that they have not been celebrating the idea of a biometric 
exit, and I just think that--I am just not sympathetic with 
that. We need to have that, but I agree that we need to do 
tests. I mean, I remember how much money we spent on SBInet, a 
technology that never worked. I think it would make a lot of 
sense to do some tests before we lay out that kind of cash to 
make sure that what we are pursuing actually will get the job 
done, and I hope that we learned a lesson from the SBInet 
catastrophe.
    Having said that, it is clear that doing something at the 
TSA line is not going to work, because you can go through the 
TSA line and then you can leave. So you really have to have 
some technology deployed at every single gate in every airport 
eventually, and it has to be something that we can afford to do 
so you can't get on the plane and leave unless you have done 
that. Is that really what you are looking at, sir?
    Mr. Heyman. The airports, I don't think you can do every 
airport, just the ones with international departures.
    Ms. Lofgren. Of course, yes. I mean, it wouldn't make sense 
if it------
    Mr. Heyman. But, yes, on the jetway where people are 
actually departing, that is the most likely place we will do 
it.
    Ms. Lofgren. I have always believed, based on the testimony 
we have received not only in this Committee but during my 10 
years of service on the Homeland Security Committee, that the 
major obstacle is at our land borders. Right now, we have 
backups at the southern border. I mean, people trying to come 
in and leave, it can take hours and hours, half a day. We want 
to have a safe country, but we also want to have commerce that 
works. I mean, Mexico is one of our biggest trading partners, 
and you have a very important economic connection between our 
two countries.
    It was suggested in Mr. Albers' testimony that we have face 
and iris scans, and I would love to be able to see that. Have 
you analyzed that proposal, what the impact would be in terms 
of delay at the border of people leaving?
    Mr. Heyman. There were a couple of pilots that were done at 
the border but with--I believe it was with fingerprint 
technologies, and this was several years ago, and it was 
largely pedestrians.
    Ms. Lofgren. Right.
    Mr. Heyman. So the answer is that the new technologies will 
need to be tested. But I do agree. I think the responsible 
thing to do is to get it working first in the air and sea 
environment and then look to land after you have that fully 
functional.
    Ms. Lofgren. Would you--I mean, I wouldn't ask for a 
commitment today, but would you take a look at the potential 
for piloting the kind of technology that Mr. Albers has talked 
about in terms of facial recognition or iris scan at the border 
and see if it actually aggravates the delay that we are seeing?
    Mr. Heyman. So you definitely need a concept of operations, 
how is that going to work. An iris scan, you need somebody to 
get out and actually do that. So you can't do it remotely.
    Ms. Lofgren. But facial recognition would be different.
    Mr. Heyman. Facial recognition you can do and stand off 
some distance. As I said, the impact of what you do on exit 
will affect what you do on entry.
    Ms. Lofgren. Right.
    Mr. Heyman. Or if you are looking at new technologies, you 
will have to be mindful of the costs that will go into entry.
    Ms. Lofgren. Right. But this will be costly, and if we 
don't appropriate the funds, we can complain all we want but we 
should really be looking in the mirror about who is 
responsible.
    Mr. Heyman. Right. What we have done on the northern border 
I think merits great attention because it really does allow us 
for the first time--and people didn't think we would be able to 
do this--to actually get the data from our Canadian partners 
and have now full------
    Ms. Lofgren. Right, every exit from us is an entry to them.
    Mr. Heyman. Right, and you will have the visibility in the 
northern border in full next summer.
    Ms. Lofgren. A final question. If we were to deploy in a 
ubiquitous manner facial recognition technology at the border, 
for example, I want to know what thought we have given to the 
privacy rights of Americans, whose data--and we have had a 
bipartisan concern about NSA surveillance, the government 
getting all the information about Americans. What standards 
would we need to be thinking about in terms of the privacy 
rights of U.S. persons with that kind of technology deployment?
    Mr. Heyman. That is absolutely the right question. You want 
to do that actually with all technologies, wherever you 
deploy--air, land, or sea.
    Ms. Lofgren. I see my time has expired.
    Mr. Bachus. Mr. Heyman, you got your Bachelor's degree in 
Boston at Brandeis? Are you a Boston Celtics fan?
    Mr. Heyman. Sir, I grew up in Washington, D.C. I am a 
Washington Wizards fan. But you get converted when you are up 
there for a few years. The Celtics are great.
    Mr. Bachus. Have you ever heard of M.L. Carr?
    Mr. Heyman. Absolutely, great ball handler.
    Mr. Bachus. He is a great--he played for the Pistons, 
played for Boston Celtics. He was coach and general manger of 
the Boston Celtics and really brought it back. I happen to be a 
friend of his, and he has written a little book called 
``Winning Through Persistence'' which is 49 pages long, and it 
is one of the best books on leadership.
    One of his best quotes--and I looked up some quotes. This 
is Homeland Security, not directed at you personally. But 
Benjamin Franklin said, ``He did as good for making excuses as 
is seldom good for anything else.'' George Washington Carver: 
``Ninety-nine percent of the failures come from people who have 
had the habit of making excuses.'' George Washington: ``It is 
better to offer no excuse than a bad one.''
    I think you have been put in a bad situation by having to 
testify about why we hadn't put a biometric exit system as a 
country on our border. So I don't--to me, you have an 
impossible job of trying to explain why we don't even have one 
now.
    But M.L. Carr I think has the greatest quote on excuses. He 
said, ``I don't accept excuses.'' And I think after 17 years, 
that is what Congress ought to say to those that have been 
charged by numerous statutes to implement a biometric system.
    And let me just read one paragraph, and this is Ms. 
Kephart's testimony on page 6. I think we don't need to know 
anything else. ``The results of a 2009 DHS evaluation report 
that tested biometric exit solutions at two large U.S. 
international airports is further evidence that a biometric 
exit is feasible now. Moreover, at least 14 Nations have or are 
deploying biometric border solutions at airports, and 3 Nations 
have or are deploying biometric guest worker tracking programs. 
Some Nations have had biometric solutions at all air, land and 
sea ports for a decade, and superb results in data integrity 
and border control.''
    And we have heard Nigeria, Indonesia. Mr. Albers' 
testimony, I mean, he lays out how you do it. The technology is 
better than it has ever been. It is cheaper than it has ever 
been.
    Mr. Heyman?
    Mr. Heyman. Sir, I appreciate the opportunity to comment. I 
was a Larry Byrd fan, not so much an M.L. Carr fan.
    Mr. Bachus. And they played on the same team.
    Mr. Heyman. Yes, they played on the same team.
    Look, persistence does matter. You are right to be 
frustrated with 17 years of predecessors of mine standing here 
and testifying for you.
    Mr. Bachus. Oh, and I am not laying the blame. Nothing 
personal.
    Mr. Heyman. I don't take it personally, sir. I just want to 
say that despite 17 years of effort and not getting it done, we 
believe we are getting it done today. And rather than waiting 
for the funding or for the feasibility of biometric to be 
workable, in 2010 we moved forward with enhancing the exit 
system so we have a full functioning system today. You need 
that as a foundation to add in the biometrics. So we have that 
as a prerequisite for getting biometric exit, and we are moving 
ahead today, as I said, with a test facility that will allow us 
to test concepts of operations.
    I just want to make one correction. I looked into the 
international requirements here, and you mentioned Nigeria. 
Nigeria is only------
    Mr. Bachus. I don't want to--Nigeria is probably not who I 
want to compare us to. Ten years ago we toured--in fact, I 
think Mr. King was on it with me. But we toured Europe, and 
Germany demonstrated a system 10 years ago, and some of the 
Scandinavian countries.
    Mr. Heyman. But these biometric entry-exit systems are 
largely biometric entry systems. The exit piece of it, no one 
has done anything like what we are contemplating doing here in 
the United States. The rare exceptions of exit are based upon 
the notion that in all likelihood the government owns the 
airport or they designed and built it to do exit system, which 
we haven't done.
    Mr. Bachus. Sure. Yes, I understand. But if I were M.L. 
Carr, I would just say no more excuses, and I am not talking 
about you. I am talking about all of us. Everyone knows I very 
much want an immigration bill and a comprehensive fix, but this 
is one reason that the House is taking more time, because 
people keep saying I am not sure we are going to get border 
security, I am not sure, and this is Exhibit 1. GAO says we can 
do it in 18 months. But again, I appreciate your candor, I 
really do, and you have just been put in an impossible spot.
    Ms. Kephart, real quickly.
    Ms. Kephart. Yes, let me respond to the fact that there are 
not exit systems deployed around the world. The UAE has been on 
the forefront of this issue since 2004. Let me read you from 
the last page of my testimony. It is page 57. This shows a 
picture of Qatar right now. This particular installation that 
they show in this picture dates to 2011. ``Every point of entry 
in the State of Qatar relies on an iris system enabling entry 
and exit at every point of entry, 80 lanes of air, land and 
sea. Every person entering and leaving the state uses the 
system. More importantly, processing times for the individuals 
is less than 5 seconds per person.'' I think that hits on 
facilitation, that hits on location if you look at the 
photograph, and that hits feasibility, and that hits ability. 
So I just wanted to add that in.
    Mr. Bachus. Thank you.
    At this time, I recognize Ms. Judy Chu, the gentle lady 
from California, for 5 minutes.
    Ms. Chu. Thank you, Mr. Chair.
    I understand, Mr. Heyman, that we have an agreement with 
Canada to exchange entry records so that the land entries of 
one country serve as the exit records of the other. And we have 
72 million travelers that are entering the U.S. through the 
border with Canada. And with this pilot program, that you were 
able to match 97.4 percent of records received from Canada to 
existing entry records.
    How would you evaluate this program? It sounds successful. 
And could a similar agreement be done with Mexico?
    Mr. Heyman. So most people have thought for years that 
maybe we could do air and sea but we would never be able to do 
the data exchange for any kind of exit tracking on our northern 
or southern borders. So the fact that we are able to do it is 
actually remarkable, and the fact that it is actually now over 
98 percent matching is also exceptional.
    This is a huge success, and that is why we are looking at 
trying to do something similar on our southern border and have 
begun conversations with the Mexican government as well.
    Ms. Chu. And can you say how far along these talks are?
    Mr. Heyman. We began those talks with the new Mexican 
administration, so they are in the beginning stages.
    Ms. Chu. And are there any other countries that would be 
logical partners for this type of agreement?
    Mr. Heyman. I mean, I guess if the whole world did that, 
you would have the system that you wanted, but I am not 
proposing that. I think those two countries are the ones that 
you would want to do it, and then the rest you have air and sea 
capability that we are building in right now, which is what we 
are all talking about in terms of the biometric system.
    Ms. Chu. Ms. Kephart, you were talking about the other 
Nations and what they are doing as far as implementing 
biometric systems, and I understand that there are 16 other 
Nations that are in the process of implementing biometric 
processing of foreign air travelers. Are there any lessons we 
can take away from their successful experiences?
    Ms. Kephart. Sure. I think, first of all, that it is 
feasible; second of all, that it doesn't slow down commerce; 
third of all, there is another uptick for this, which is that 
airline processing is starting to take place with biometrics as 
well. They are actually starting in some Nations and some 
airlines to use biometrics as the boarding pass to ease flow-
through, to get rid of paper and lower the cost for the 
airlines, too.
    So you are seeing a lower level of cost once it is 
implemented that helps everybody. And in some airports, for 
example, they are seeing more commerce in the jetways because 
people are spending less time on processing. For example, if we 
had something more biometric at TSA's security lines, imagine 
how much better that would be. We are talking about 5 to 20 
seconds to gather very important information for immigration 
integrity, and we spend anywhere from 5 minutes to an hour in a 
TSA security line.
    So I think when you make that balance and you look around 
the world, you see how efficient, how quick, how accurate. For 
example, in the UAE right now, that system has been in place 
since 2004. Two hundred and forty million irises are in that 
system. It takes 2 seconds to do a verification. That is 
amazing.
    Ms. Chu. But my question is, why is it that these 16 other 
Nations are able to do it and we have taken all this time, 17 
years? And, Mr. Heyman, I would like you to comment on that, 
too. Why is it that the other Nations were able to progress?
    Ms. Kephart. Well, I think in fairness to DHS, and Julie 
mentioned this earlier, the technology wasn't there 10 years 
ago to do this well and cost effectively. It just wasn't. But 
it is there now. We also had a lot of confusion because we had 
so much statutory language layered on top, and then in 2007 we 
put the onus on the air carriers when every other Nation in the 
world has the government do it, and the government just 
implemented as it wants. We have more bureaucracy here, and 
that is part of the problem too, and the statutory language is 
a little bit conflicting, and it needs to be streamlined.
    Ms. Chu. Mr. Heyman?
    Mr. Heyman. In the United States, we don't own the 
airports, the government doesn't have authority over the 
airports, and the infrastructure wasn't built for exit in mind. 
In new airports, particularly in countries that have the wealth 
to build new exit facilities, they can line it up, like we do 
on entry, and it makes it much more feasible and cost 
effective. In fact, if we had a system like that, we would be 
much more able to do that.
    So I think in the rare instances where there are exit 
facilities internationally, and it is rare, it is because they 
probably had the resources and the ability to design the system 
from scratch.
    Ms. Chu. Thank you. I yield back.
    Mr. Bachus. Thank you.
    Mr. King is recognized for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the witnesses here. It has been really an 
interesting testimony, and the questions I intended to ask have 
moved along because you filled in a lot of blanks for me.
    But I have this broad question that hasn't been addressed, 
and it has to do with if we could get this all done exactly 
perfectly with the technology that has been testified to, 
especially even within the dollar figures that we are talking 
about, maybe one-sixth of $3 billion and implement this, how 
wonderful it would be to actually have a moving spreadsheet 
calculation of the identification of everybody that came in, 
everybody that left, and the sum total would be the people in 
the United States of America. I haven't heard that said yet, 
but that was the philosophy behind the entry-exit system that 
we hoped to 1 day put in place.
    Now, I just imagine that that can be done, and the 
testimony here tells me that it can. We have the technological 
ability to do that within a reasonable cost figure. In fact, it 
occurs to me that you just sell those 1.6 billion extra rounds 
of ammunition and we could easily fund this, Mr. Heyman, but 
that is just my little facetious remark today.
    But if we put this all in place in this way and we still 
have an Administration that refuses to enforce the law, what is 
the point? I mean, I would like to get this implemented for the 
next president, but I have no hope that this president would 
utilize the ability to identify the people that overstayed 
their visas, let alone find a way to, I'll say, collect some of 
those names as people that come and go in our land ports.
    I have stood at the ports of entry and watched as people 
will pull up, have their card swiped, see it show up on the 
screen and verify that they are who they say they are, drive 
into America, and an hour later the same car comes back, they 
wave and they drive out. That is going on millions and millions 
of times. We all know that.
    But I look at the Border Patrol's nationwide illegal alien 
apprehensions that go back clear to 1925, and it just averaged 
the apprehensions at the border from 1980 until the beginning 
of the Obama administration. The average apprehensions Border 
Patrol number, 1,160,199 per year from 1980 until the Obama 
administration, who averages 431,111. So it is a number, just a 
little bit more than a third of the average apprehensions that 
we have had.
    So I don't have hope that there is going to be enforcement. 
When I hear that the Gang of Eight's bill in the Senate is 
somehow going to help us and that we are working down the line 
of identification, tracking and sanctioning, the 
identification, I believe that your testimony there is fairly 
clear to me, Mr. Heyman. The tracking point is not. I don't 
think we can track them. I don't think we know where they are. 
And the sanctioning part, it is obvious, isn't taking place, 
because even the border interdictions are just a little more 
than a third of the average going clear back to 1980.
    So this is a lot of exercise in what we might be able to 
do, but if we give the resources that Ms. Wood has asked for, 
we still have to have the will to implement them.
    So I really wanted to turn my question over here to the 
gentleman, Mr. Albers, and ask this. I saw some facial 
recognition technology implemented that showed a man. He is 
actually a naturalized American citizen, an immigrant from 
Germany that had on his iPhone 355 facial recognition faces in 
his storage, and in that he was able to instantly use that for 
his security on his iPhone. If he would look at it, it would 
turn on in an instant. If he would look away from it, it would 
turn off in a couple of seconds. That kind of technology is 
available to us and priced reasonably.
    So can you explain that to us? I mean, is the vision in 
your head how we might be able to set that all up and walk 
people through with that kind of instantaneous response? Can we 
build that spreadsheet so we know the net number and the 
identification of the people? And then I am going to ask Ms. 
Wood how we find them.
    Mr. Albers. So let me answer the last question first. The 
answer is yes. So the spreadsheet part I think is relatively 
easy.
    Let's step back a little bit, though, and talk about--and 
Mr. Heyman actually mentioned this. Biometrics only works if 
you have an enrollment image and then a match image. So right 
now we have inferior images in the system. We are not doing 
good face captures, and we are not doing iris captures at all. 
The technology has improved now so that there are devices about 
this size that will take a picture of a face and an iris in one 
click, will not take a whole lot of time. USCIS happens to be 
one of our customers, and we are talking to them about what if 
you wanted to add? They take actually pretty good quality 
pictures of a face; they don't do iris at all. But you could 
add that to the process when you bring people into USIS right 
now.
    So to go back to your question, if you have quality images 
in and you have quality matches out, you will have very high 
rates of accuracy, and you can do it very, very quickly. Like I 
said, the accounting part is pretty easy. You could tell 
exactly how many people were in this country and were out.
    Mr. King. Thank you.
    And, Ms. Wood, then how would we find them?
    Ms. Wood. Well, we would have individuals that are 
dedicated to this, more than 300 ICE agents that are actually 
focusing on this. If you think that in 2012 the agency only 
opened 2,800 investigations into overstay enforcement for kind 
of non-routine cases, that is not a lot, and only arrested 
1,273 individuals, that is not very many. So ICE needs more 
resources either in HRI or ERO that are designed to do routine 
enforcement.
    Mr. King. And the will, and the will?
    Ms. Wood. And we have got to, then, do it right away. We 
can't let individuals overstay here by years where they build 
up a lot of equities, and then it causes a lot of difficulty. 
So we need to have more routine enforcement, information coming 
in very quickly to ICE and ERO, and that sort of investigation 
and action being taken routinely, and that would give folks an 
incentive to go home as well. If they know there is going to be 
enforcement, they would actually leave. Here, I think people 
know there is not going to be an enforcement. There is no 
incentive to leave the country if you overstay at this point.
    Mr. King. Nice word is ``self-deport.''
    Can I ask unanimous consent that the gentleman can respond, 
Mr. Albers?
    Mr. Bachus. Yes.
    Mr. Albers. Yes. I didn't want to denigrate my State 
Department customers. They actually take very high-quality 
pictures for visas.
    Mr. King. Thank you, Mr. Albers.
    Thanks, Mr. Chairman. I yield back.
    Mr. Bachus. Thank you.
    Our next Member just returned from a GQ screening, I guess, 
with the scarf and sunglasses. I wish folks could see that.
    But are you next, Mr. Gutierrez? The gentleman from 
Illinois is recognized.
    Mr. Gutierrez. Thank you very much, Mr. Chairman.
    I think it is important to note what happens within the 
context of inaction on immigration. I have been in Congress for 
more than two decades, and we have debated the merits of the 
entry-exit system many, many times. This is not new. I support 
the implementation of effective entry-exit system and have 
included it in immigration bills that I have authored in the 
past.
    Biometrics is important. You can do biometrics tomorrow. 
There is nothing in the law that says you cannot do biometrics. 
Now, we might have a debate about whether you should be forced 
to do biometrics, but there is nothing stopping us. Let's stop 
kidding ourselves. We are having a hearing about nothing, 
because nothing is going to happen until both sides of the 
aisle get together and get serious about comprehensive 
immigration reform.
    So what? Wonderful testimony. We have heard it all before. 
Great. You want to have a poll here? All of us will agree with 
all four of you, biometrics is better. I bet you it will be 
unanimous, biometrics is better. So what? What have we 
accomplished here this morning? Absolutely nothing. Because 
what we do is we have--you all know, and I am sure if I asked 
you--well, what else could help?--you would say, well, if we 
had an eVerify system, that would help too because maybe they 
would leave quicker, because without an eVerify system, those 
just overstay their visas and work in this country. You would 
probably tell me, ``You know, Luis, maybe if we had a worker 
system that had sufficient visas so that certain industries 
could have the workers that they need, like 2 million people 
that work in our agricultural industry every day, foreign hands 
picking everything that everyone testifying there and everyone 
on this side eats every day in this country.''
    Shame on us. Shame on us. And what do we do? We come here 
to discuss an entry-exit visa program. It will be unanimous, 
435 to nothing. And you should do it at DHS. It is the right 
thing to do. That is not really the problem here. It is like we 
are going around the issue.
    The issue is what do we do about the 11 million people that 
are already here, and how is it that we fix that in the future? 
I am for security. The first part of the bill that I 
introduced, the first four paragraphs, Mr. Garcia was like, 
``Luis, have you gone security crazy?'' Mr. Garcia just 
introduced a proposal that has security, security, security, 
security. But when do we get the compassionate part?
    It seems to me, Mr. Chairman, that any good, sound, 
effective immigration policy is cohesive and it is 
comprehensive, and it needs many of the inter-working, 
interlocking parts in order to be effective. You can't do one 
and really be effective with the other or you overburden and 
overload the other part of the system.
    Any good agent at the border--everybody says, well, we are 
not enforcing. Well, sure, because we put 20,000 Border Patrol 
agents, because that is the smart thing to do. But wait, stop. 
Let's just throw 20,000 more Border Patrol agents, even though 
we have heard here that 40 percent of our problem has 300 
people. But we are going to put 20,000.
    And what does the White House say? ``I'll sign that bill.'' 
What does everybody say? ``That is a great bill.'' Really? That 
is a great bill that militarizes the border between the United 
States and Mexico. That is a good bill, when we already heard 
the 40 percent.
    Look, I have to tell the Republican majority, Obama is not 
here. I looked. He doesn't have a seat in the Judiciary 
Committee. Last time I checked, he is not one of the 435 
members of the House. Forget about it. I don't want an Obama 
solution. I also don't want a Tea Party solution. I want an 
American solution to our broken immigration system. We can have 
all the hearings we want, but shame on us, on everybody for not 
doing the work.
    Now, look, I know everybody says ``I will admit it, we 
could have done more as Democrats.'' But you know something? I 
am the first one to say that. I said that repeatedly. So what 
are you going to do? Follow in the tradition of do nothing on 
the issue? ``Oh, you guys didn't do anything, so now''--you are 
the majority now. You are the majority. But we had a referendum 
on this issue.
    And here is what I am going to end with. Look, the 
political consequences of inaction on this issue are going to 
be grave to the Republican Party. I know many of you don't 
believe it, but mark my words, it will be grave. If you care 
about regulatory issues, if you care about monetary issues, if 
you care about any other issue, you had better take this issue 
off the table, because until you do, you will never see a 
presidency of the United States, you will never gain the Senate 
again, and you will see the fight of a lifetime over the House 
of Representatives on the issue of immigration.
    I know it will come as a surprise to many. But remember--
and I just ask for 30 seconds more.
    Mr. Bachus. The gentleman is yielded an additional 15 
seconds.
    Mr. Gutierrez. Thank you. And I will remind everybody, 
November 6th of last year there was a referendum. Mitt Romney 
said self-deportation, let's expand S.B. 1070, and he said he 
would veto the Dream Act. He lost by 5 million votes. Everybody 
was surprised, all of those people coming out to vote on the 
issue of immigration. Well, they came out to vote, and they are 
not going anywhere. Speaker Boehner can't have breakfast 
without people coming.
    Mr. Bachus. The gentleman is granted another 10 seconds.
    Mr. Gutierrez. We will not go away. We will persist in this 
issue.
    Mr. Bachus. Thank you.
    Mr. Gutierrez. Thank you very much, Mr. Chairman.
    Mr. Bachus. Thank you.
    Let me briefly respond just by saying this to the 
gentleman. He has mentioned President Obama and Mitt Romney. 
Let me just put the two of those together.
    Mitt Romney. I talked about excuses earlier. The hearing is 
about implementation of an entry-exit system still waiting 
after all these years. That is what the hearing is about. And 
Mitt Romney said leadership is about taking responsibility, not 
making excuses, and I think that is a message that the 
President ought to hear and this Congress ought to hear.
    And a part of immigration reform is security. In fact, it 
not only has to do with immigration, it has to do with 
terrorism. This is why a lot of the testimony today comes from 
the National Commission on Terrorist Attacks. That is another 
reason that we don't need excuses, we need leadership.
    Mr. Chaffetz is recognized for 5 minutes.
    Mr. Chaffetz. I thank the Chairman.
    And the sad reality for the Democrats, who want to try to 
portray that they have the high moral ground on this, is the 
Democrats controlled the House, the Senate, and the presidency, 
and they did nothing. I sat on the Subcommittee here. I 
campaigned on this issue. I want to be part of the solution, 
not the problem. But the reality is, when the Democrats had all 
three levers of power, they did nothing, nothing. We didn't 
even consider in the Subcommittee a single bill.
    Mr. Garcia. If the gentleman would yield.
    Mr. Chaffetz. No, I won't, not yet.
    Go ahead, go ahead, I will yield to you.
    Mr. Bachus. Mr. Garcia is recognized.
    Mr. Garcia. You know, we can keep looking to the past, Mr. 
Chaffetz. We can keep looking to the past, and there will not 
be a solution.
    Mr. Chaffetz. Reclaiming my time, I accept your------
    Mr. Garcia. Will you let me finish?
    Mr. Chaffetz. No, I would rather not. Reclaiming my time.
    Mr. Garcia. Absolutely.
    Mr. Chaffetz. You made your point, you can keep looking to 
the past. Well, you want to blame us. We have actually taken 
action in this Committee, and shame on the United States 
Senate.
    Now, I know the gentleman is new, but let's remember that 
when Republicans took control of the House, because the point 
was made in the previous questions and statements that 
Republicans will bear all the brunt of the political 
ramifications, let's remember it was this House of 
Representatives in a bill that I sponsored and had broad 
bipartisan support, including the gentleman from Illinois, the 
gentlewoman from California and others, we passed a bill that 
would have helped hundreds of thousands of people. It lifted 
the per-country caps on family-based visas from 7 percent to 15 
percent.
    This would have had a real effect. And guess what? The 
Senate, controlled by the Democrats, with no assistance from 
the White House, did nothing about it. We had almost 390 votes 
in the House of Representatives. It doesn't get much better 
than that, to have that many people supporting that bill, and 
it went nowhere in the Democrat-controlled, Harry Reid Senate.
    Mr. Gutierrez. Will the gentleman yield to me?
    Mr. Chaffetz. I will yield to the gentleman from Illinois.
    Mr. Gutierrez. Thank you so much, Mr. Chaffetz.
    Number one, I just want to say this. There are no senators 
in this room and on this panel. The President is not here in 
this room. I think you know, and I can say this to Mr. 
Labrador, and I can say this to Mr. Bachus, I can say it to all 
of you, you are all my friends. Let's work it out. That is all 
I am saying. Let's sit down, and let's not say we can't do 
anything. That is all I am saying. I know you are of good 
faith. I just want to work toward a solution, please.
    Mr. Chaffetz. Reclaiming my time.
    Mr. Gutierrez. Thank you.
    Mr. Chaffetz. To continue to make the case that it is only 
the Republicans in the House that are holding back the problem 
is not accurate. The Democrats could have brought up that bill 
last term, last term. Granted, there are no senators in here, 
but let us be united in saying that the United States Senate is 
the problem, that Harry Reid refusing to bring up that bill is 
a problem.
    There are hundreds of thousands of people who didn't get 
relief that we offered out of the House, and we did so in a 
bipartisan way.
    So let the record reflect, Mr. Chairman, it is not merely 
House Republicans, as some would want to purport to say. We 
actually took action because the first 2 years, at least that I 
was here, the first 2 years under this President, when the 
Democrats had the House, the Senate, and the presidency, they 
did zero, and I do appreciate the sincerity and the 
willingness, particularly of the gentleman from Illinois, to 
work across the aisle, and I hope he understands that while we, 
me personally, do not agree on 100 percent of the issues, we 
probably agree on the majority of the issues.
    You are, in part, making the case that I believe that we 
ought to take an incremental approach. And what is terribly 
frustrating is that, as the gentleman from Illinois said, we 
are unanimous in the idea that we need this entry-exit program. 
It is the law of the United States of America. It is the law, 
and yet it hasn't been done by both a Democrat and Republican 
administration.
    So let me try to get at least one question in for Ms. 
Kephart here. The estimate originally was some $3 billion that 
this was going to take to implement. Do you know how much has 
been spent so far? Do you have any idea how much it would cost 
to do it now?
    Ms. Kephart. To do it now, my estimate, after working with 
some of the folks that worked on the 2009 successful US VISIT 
pilot, is that it would be about $400 to $600 million, not 
including the manpower costs, which I think could be pretty 
minimal considering the technology possibilities today. The 
range in cost is wide because of the biometric solutions that 
are available.
    Mr. Chaffetz. And given that we have something like a $3.7 
trillion budget, Mr. Albers, we are going to run out of time 
here, but I would appreciate perhaps in follow-up understanding 
a little bit about multimodal biometrics, what that means, what 
are its implications. Perhaps you can give us a quick answer to 
that before we run out of time.
    Mr. Albers. So the reason I make the point is because of 
all the databases that are being built with the FBI and the 
State Department that include multimodal--face, finger, and 
iris. So to do an effective exit program, you would like to be 
able to get those people upon entry when they enroll, find out 
if they are in any of those databases, are they bad guys from 
Iraq or Afghanistan, and then when they exit the country you 
know they are going, and iris and face are very, very fast in 
terms of the type of time it takes to capture them and hit the 
database against them.
    Mr. Chaffetz. Thank you. I yield back.
    Mr. Bachus. Thank you. And for the record, I said that the 
hearing, when I said it was about the implementation of an 
entry-exit system, still waiting after all these years, I 
quoted counsel for the National Commission on Terrorist 
Attacks, Ms. Kephart. But it is important to know that it is 
actually the National Commission on Terrorist Attacks Upon the 
United States. We shouldn't leave that out. We are talking 
about terrorist attacks on the United States, something that 17 
years ago we said was necessary for the security of each and 
every one of our constituents and citizens.
    Mr. Garcia is recognized for 5 minutes.
    Mr. Garcia. Mr. Chairman, first I want to point out your 
excellent fashion sense on pointing out my scarf. I greatly 
appreciate that.
    Mr. Bachus. The sunglasses also------
    Mr. Garcia. They also helped. Thank you, sir.
    When I speak, I speak to the broader point here. It is time 
we stopped pretending to fix our broken immigration system. We 
are sitting here rearranging the deck chairs on the Titanic. 
Eleven million people are in our country without documentation; 
we have done nothing. The Senate made historic progress, 
finally reforming our immigration system. And you are right, 
they have made mistakes in the past, and they hadn't moved. But 
we are not there; we are here. Instead of building on that 
progress, this Committee has passed four useless bills with no 
chance of going anywhere.
    My hometown is a gateway to Latin American travel. I 
gravely understand the importance of this issue. But it is only 
part of the problem. H.R. 15 provides comprehensive reform 
while mandating the establishment of a mandatory exit system. 
But whether we consider my bill or other legislation, it is 
time to stop talking and start doing.
    We keep hearing that legislation is coming. First we heard 
that it was a top priority for this Committee. Then we were 
told that we would see legislation in October. Now it is 
sometime next year. Unfortunately, we hear too much, and it is 
all talk and no action.
    Today, from the Speaker, we hear we have no intention of 
ever going to conference on the Senate bill. Well, Mr. Speaker, 
this is how you make legislation. It is an essential part of 
what we do. You go to conference. What is our bill? What is it 
we are going to put forward? More than enough Members of the 
House understand the benefits of immigration and understand 
that it is necessary for our Nation's prosperity, and 
understand that it is what we will do inevitably. In the 
meantime, we fail.
    But with every day that passes, this problem gets bigger. 
The consequences of inaction become more costly to our economy, 
to our country, to our people. This body needs to stop hiding 
behind empty promises and start doing the job we were sent here 
to do. We have been given an unprecedented opportunity. Now is 
the time to pass immigration reform, and we can do the 
biometrics. But it has to be part of a bigger solution.
    And I understand the other side's frustration with this. 
Negotiations are always tough. You are in power. You have a lot 
of things pressing on you. But this is something that will not 
wait. The time is now. The moment is now. You have our 
attention. You have the world's attention.
    The Senate passed a bill. It wasn't the bill I would have 
passed, but they passed a bill. The President of the United 
States said he would sign a bill. It wouldn't be what I would 
want to sign if I was president, but you have his attention. 
Now the ball is in our court. The time to act is now.
    And, Mr. Chairman, I point out particularly that you have 
been tremendously generous on this issue, and I know that you 
have been trying to work with all of us on this, and I also 
appreciate my colleagues on the other side because I know I 
have called, cajoled, perhaps even harassed a few of you to try 
to get you to join on H.R. 15. We need to go to conference, 
gentlemen and ladies. We need to find a solution.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Bachus. Thank you. Let me say this. Members on both 
sides are frustrated, because we do know that we have a broken 
immigration system and it is not fair to our citizens, it is 
not fair to the 12 million residents who are here and have been 
here for sometimes decades. Mr. Labrador has worked very hard 
on this, Mr. Chaffetz, and part of our frustration is inaction, 
and part of that inaction is that we don't have an entry-exit 
biometric system, although 30 other countries in the world do.
    We are the can-do Nation. We are the leader of the free 
world. And that causes frustration. But we also know that we 
are not going to have--and Kevin McCarthy said yesterday that 
we are going to address immigration reform. It would be on our 
agenda--that was my understanding--early next year. We only 
have 12 legislative days left. But it is a priority for many of 
us.
    At this time, I would recognize Mr. Marino, the gentleman 
from Pennsylvania.
    Mr. Marino. Thank you, Chairman.
    I just came out of a hearing over at Foreign Affairs 
concerning terrorism, and although I am a major supporter of 
getting something done on immigration--I have been working with 
my colleague, Mr. Labrador, on some language that we have been 
discussing, reaching across the aisle, working with my 
colleagues over there--I am a little frustrated today with the 
pointing of the fingers and saying we are not going to talk 
about this, but we talk about it.
    I want to look at this from specifically why we are here 
from a technical aspect, if I could maybe get us back on track, 
perhaps, and I have several questions. I am not going to ask a 
question of any one individual, but if you feel like you can 
respond to this, which I am sure you can, please do.
    The biometrics, we see it all over the place. Go to Disney 
World, put my card in, put my finger in, hey, that is Tom 
Marino, that is his card. Unlock my front door, lock my front 
door, start my car, the whole nine yards. I know much of this 
has been achieved over the last 10 years because we didn't have 
the technology beforehand. We do have the technology now, and I 
think it is getting better by the week, actually. I know my 
kids, they are a prime example of it. Every time they get an 
iPad or an iPod or an iPhone, it is 6 weeks later, ``Dad, a new 
one came out, I want to get another one.'' I say, no, I am 
sorry, we cannot afford this.
    So given the fact that I will be the first one to admit 
that we need to fund this--you cannot do the work that has to 
be done without the proper funding--succinctly, where do we go 
from here? What is the next step, and what do we need to do to 
get this moving and get it moving quickly? Because I don't want 
to be here next year or 2 years later talking about the same 
thing. I get very frustrated. I am a prosecutor, 18 years a 
prosecutor, and I do not like to wait for anything. My wife can 
testify to that. So, please.
    Mr. Heyman. Congressman, I will be happy to take that 
question, and I appreciate the opportunity.
    We all, I think, agree that the technology has evolved over 
the last several years and provides great opportunity for us to 
advance the biometric component of our entry-exit system. What 
is needed is to identify what the concept of operations is, how 
will you use it. You have national security law enforcement and 
the interests of the traveling public at hand, and you need to 
figure out where do you deploy that to best accomplish all of 
those goals.
    If you deploy it too early in the system at the TSA 
checkpoint, you have a problem that people can enter the system 
and exit the system without actually departing the United 
States. Therefore, you look at the gateway or the jetway where 
they are actually leaving onto the plane, and so you have that 
concept which needs to be identified, and the technology needs 
to be evaluated for the environment that it is in and for all 
the circumstances.
    We are about to do that right now. We are standing up a 
test facility that will be operational at the beginning of next 
year, and we will be looking at a number of technologies and 
how you use them, what is the most cost-effective way, the 
fastest throughput, ease of use, all of those things that need 
to be evaluated. We will be doing that beginning next year. 
Once that concept of operations is evaluated and you deselect 
to what is the best one, you deploy those best solutions to the 
field, pilot them in the field, and then subsequent to that you 
begin to deploy the technology.
    Mr. Marino. Anyone else? Anyone else want to address that? 
Please.
    Ms. Kephart. Yes, please. I think there is another piece of 
this. David, of course, on the operational side has to deal 
with the concept of operations, which is a little bit 
complicated but totally doable, I believe. But there is another 
piece of it which I have said before but I will repeat. We have 
to provide a means to fund it. That is absolutely essential, 
and I think you can do that through authorization of fees.
    The tourism industry right now, Brand USA, gets $10 out of 
$14 for the visa waiver fee. You add another $10 to that, I 
think that is more than fair, and you can pay for a lot of 
this. You can even increase it more, or you could appropriate 
it. Either way. But I think in a budget situation we are in 
now, it would be an authorization for fees.
    The other piece of it is you need to make sure the airports 
are a stakeholder in statutory law. They are not considered a 
stakeholder right now, and DHS has a harder time doing its job 
on exit because the airports are not a stakeholder. And then 
you have to make sure that the air carriers are not in the 
equation anymore because CBP, under the 2013 Homeland Security 
Appropriations Act, has the ability to do that, but air 
carriers are still in the law carrying the burden of 
implementation.
    So those things. I think statutorily this body, this 
legislative body can do those things.
    Mr. Marino. Well, we need that information from you people. 
I know when we get elected to Congress, we get taller, smarter 
and better looking, but we don't have the answers, all the 
answers, and we need these technical answers from you folks. So 
I appreciate any input that you can give us. You can call my 
office. I am on Homeland Security as well, and this is an issue 
that I am quite focused on.
    So, thank you very much. I yield back.
    Mr. Labrador [presiding]. The gentleman's time has expired. 
I am glad that is working for you. It hasn't worked for all of 
us, that we are getting taller and better looking.
    The gentlewoman from Texas.
    Ms. Jackson Lee. I thank the distinguished gentleman.
    Let me thank the witnesses and indicate that simultaneous 
to this hearing was a hearing in Homeland Security, of which I 
am a Member. So I thank you for your indulgence.
    Let me welcome Ms. Wood. I have seen you appear before this 
Committee in many years past as I was on this Committee, and I 
am glad to see you back, and I know that you have some insight 
that is very important.
    If I could reflect for a moment on using a metaphor or a 
rhetorical question that Martin King used to ask, ``If not now, 
then when? How long? How long?'' I think, as we look at the 
very serious questions of exit and entry, and in actuality an 
issue that the Homeland Security Committee has addressed and 
introduced a bill that I am an original co-sponsor of and 
helped work on, H.R. 3141, which is the Biometric Exit 
Improvement Act of 2013, which puts it right to the Department 
of Homeland Security to enact in 180 days, to submit to 
Congress a biometric exit system, we have studied this 
exclusively and extensively, and I am grateful for the 
collaboration of the House Judiciary Committee.
    But I know that all of us take our work seriously. So we 
have a bill ready to be marked up. We have also introduced H.R. 
1417 that has been passed through the House Homeland Security 
Committee, a bipartisan bill that deals with a reasoned and 
reasonable response to the security of our borders, northern 
and southern. I always make sure that I make mention of both 
northern and southern.
    So let me ask the question to Mr. Heyman, who deals with 
policy issues. I know you are aware of these initiatives and 
aware that there are vigorous discussions in the Department on 
this concept of securing America, immigration reform, border 
security, and you have just heard me give the words, ``If not 
now, then when, and how long?"
    How much better would we be with a comprehensive approach, 
comprehensive immigration approach to this whole issue of 
knowing who is in the country, knowing who is entering the 
country, and knowing who is exiting the country?
    Mr. Heyman. Thank you, Congresswoman, for the question. I 
would support comprehensive immigration reform as a better 
condition than we are in today. There is certainly no ability 
to move beyond where we are today absent legislation, but there 
is the prospect of a brighter future for the immigrant 
community, for border security, for our economic well-being 
with an immigration legislation that is passed.
    In the context of knowing who is in the country, who is out 
of the country, we have made substantial progress on that with 
our entry-exit system that we have been enhancing over the last 
several years. The biometric portion of the exit process we 
have talked about extensively today. It is my view that 
Congress and the government needs to be smart about 
implementing it.
    The hardest part is the land border. We need to be very 
prudent and make sure that it works in the air and sea 
environments first. That is a costly expense. It is going to be 
even more costly in land, so let's get it right first.
    Ms. Jackson Lee. Let's get land first?
    Mr. Heyman. No. I am saying air and sea first, ma'am, air 
and sea first to make sure we get that right, and then we can 
take a look at land. We are doing some very innovative work on 
the land border which will allow us biographically to identify 
exits. That has been piloted with our Canadian partners, to 
great success. We are looking to do something similar on our 
southern border.
    Ms. Jackson Lee. Let me ask Ms. Wood, in terms of having 
been at ICE before, what is your assessment of being able to 
look at the biometrics in pieces, to be very honest with you, 
getting pieces done, and then putting the whole together?
    And then also, having been in ICE and knowing that you have 
the internal enforcement, the value of having a comprehensive 
approach so you will know and ICE will have the documentation 
to know who should be detained and who should not, and be able 
to be effective in making sure we are detaining the people who 
will be here to do us harm?
    Ms. Wood. Thank you for that question. I think certainly 
ICE and all of law enforcement would take a piece-by-piece 
approach. Obviously, law enforcement wants biometrics, and it 
wants it not only at air and sea but also at land border. But I 
think any improvement in the process, and there have been 
improvements over the last few years, is very useful not only 
to ICE but to the JTPF and all of law enforcement.
    I think it is critical, however, that ICE has enforcement 
resources and an enforcement mandate to enforce overstays at 
some level. So when we think about comprehensive immigration 
reform and making things different, having a system that works, 
we have to make sure that ICE has the resources to do routine 
enforcement going forward as well.
    Ms. Jackson Lee. May I just say this, put a question on the 
record? I thank you for your indulgence, Mr. Chairman.
    I think you are absolutely right. Resources are necessary 
for enforcement, and I think that when I spoke piecemeal, I 
just want to correct the record. I want to give comfort to my 
friends on the other side of the aisle, that we need to pass 
something so that we can move forward. When I say 
``something,'' something constructive so that we can move 
forward on a comprehensive approach that is killing this 
country, killing America, killing those who are citizens and 
non-citizens who are desperate for some regular order to make 
this country the great country that it is.
    Biometrics, we have a bill. It deals with land, and I 
believe we can work on the land piece and the border security 
piece out of Homeland Security, meaning legislation, and then 
be able to match it with a very effective, comprehensive 
immigration approach. And I would ask my colleagues not to stop 
the movement and the progress of getting somewhere to be able 
to stabilize, to work this system right and have a 
comprehensive understanding of who is in this country to help 
us and who is here to hurt us.
    I hope that my good friend who is in the chair today will 
take up the cause and the banner for this Committee and the 
Speaker to move forward on comprehensive immigration reform. 
And if he only needs a piece of a bill, then move forward on 
3141, a biometric bill from Homeland Security, or 1417, and we 
will be able to move forward on comprehensive immigration 
reform. We will be able to do it now.
    Mr. Labrador. Thank you.
    Ms. Jackson Lee. I yield back, and I thank the gentleman 
from New York.
    Mr. Labrador. The gentle lady's time has expired, and I 
yield myself 5 minutes.
    I have been a little bit confused by some of the comments 
today, and I want to ask Ms. Kephart, you were obviously 
counsel to the Senate on Senate bill 744. Is that correct?
    Ms. Kephart. Yes.
    Mr. Labrador. And I keep hearing that the only way to get 
biometrics done--I have heard this now several times--is to 
have comprehensive reform. That makes no sense to me.
    Now, I want a comprehensive approach to immigration reform. 
I am here--I came to Congress specifically to fix the 
immigration system. But I am confused by the statement, and Mr. 
Heyman made it, a couple of other people have made it, that the 
only way to proceed forward on figuring out what to do about 
biometric entry-exit system is to have a comprehensive 
immigration reform plan. Does that make any sense to you?
    Ms. Kephart. Look, the immigration system is made up of 
many, many pieces. It is convoluted. It is complicated. Each 
piece has its value. Each piece can be dealt with in its own 
comprehensive bubble. You don't need everything fixed at once.
    This is a little different than the immigration reform that 
is sitting here before us because we already have eight 
statutes.
    Mr. Labrador. Okay, let me stop you there. That is the 
question that I have. We have had statutes for 17 years on the 
books, right?
    Ms. Kephart. Mmm-hmm.
    Mr. Labrador. We haven't done anything to fix this system. 
Now, I hear that we have done some things to make it better, 
but we haven't done what the law says. The law says that we 
need to have a biometric entry-exit system.
    So the question that I have for all of you, I want to have 
immigration reform done. I have asked that we have triggers, 
and one of those triggers has to be a biometric entry-exit 
system.
    How long would it take the United States to have a 
biometric entry-exit system at sea, land and air so we can have 
a trigger in place so we can have this comprehensive reform 
that some people are talking about?
    Ms. Kephart. If you went by the law that is on the books 
today and you put out requests for proposals tomorrow to 
industry and let them battle this out for a concept of 
operations, then I think you could have this very quickly. You 
could have it------
    Mr. Labrador. And what is very quickly?
    Ms. Kephart. Well, if you look at Indonesia, they did a 
comprehensive rollout that did everything, watch-list vetting, 
person-centric system, everything, at their largest airport in 
6 months' time.
    Mr. Labrador. Mr. Albers?
    Mr. Albers. If there were funding in place------
    Mr. Labrador. Yes, and funding. We have to assume that, 
absolutely.
    Mr. Albers. If there were funding in place and a 
contractual vehicle in place, we could do this in 18 months.
    Mr. Labrador. Eighteen months.
    Mr. Albers. So a part of that, the beginning, sometimes is 
the long part. So getting the funding and getting the 
contract------
    Mr. Labrador. And you are talking total. If we decide 
tomorrow that we are going to pass reform and we are going to 
have a comprehensive strategy on immigration, but the trigger 
is that we have to have an entry-exit system, you are saying 18 
months.
    Mr. Albers. Eighteen months--we call it ARO, after receipt 
of order. So if an order is placed to start air and sea, we 
could do that in 18 months. I think land will take a little 
longer than that.
    Mr. Labrador. How long?
    Mr. Albers. Maybe within 2 years.
    Mr. Labrador. Two years.
    Ms. Wood?
    Ms. Wood. I would defer to DHS for the estimate, but I 
would note that getting the receipt of order is very difficult. 
And so making sure that DHS has sufficient procurement 
capabilities and moves out, and then actually moves on it. If 
we think about what has happened to integrated six towers, for 
example, or at CBP, there has not been a lot of activity. So I 
think making sure DHS has enough resources, and then I would 
defer to David on the specific time period.
    Mr. Labrador. Mr. Heyman?
    Mr. Heyman. Thank you. There are a number of statutes on 
the table right now that we are trying to implement. We don't 
have the funding, as you said, and we don't have the concept of 
operations. So we are looking to have that within the next 
year. So by this time next year, the concept of operations will 
be going to the field for piloting. Sometime after that, 
perhaps the 18 months would kick in for deploying the 
technology to air and sea. I think the land is exceptionally 
hard to look at, and I would suggest that there are enough 
statutes out there that we don't need to tie this to 
comprehensive immigration reform. You should do the best you 
can with all the different challenges you have on that on its 
own.
    Mr. Labrador. But we don't need to tie it to it. I actually 
think we already have the laws in place. But the problem is, 
even if you look at the Senate bill, the Senate bill just 
makes, again, the promise that we are going to have an entry-
exit system. It doesn't solve the problem. And according to the 
estimates of the CBO, even under the Senate bill we are going 
to have over 10 million people here illegally in the next 10 to 
15 years.
    So it doesn't fix the problem that we have, and that is 
what I want to do. I want to fix the problem of illegal 
immigration. I want to fix it now, and I am not going to allow 
a bill to just pass so we can have this discussion again 10 or 
15 years from now.
    Mr. Heyman. So it is my view that an entry-exit system is 
not going to solve your overstay problem. It helps you identify 
it and it helps you to enforce it, but it is not going to solve 
your overstay problem. Only immigration reform will solve that.
    Mr. Labrador. That doesn't make any sense. How will only 
immigration, when the CBO says that the Senate bill does not 
solve the immigration problem?
    Mr. Heyman. Because what biometric does is it allows you 
to, with greater integrity, identify somebody who is leaving 
the country, and to use that to match it to an entry so that 
you can know whether they have overstayed or not.
    Mr. Labrador. But Ms. Wood said if we have actually more 
enforcement, then we can solve that problem. Isn't that what 
you were saying, Ms. Wood?
    Ms. Wood. Yes, I think pairing exit with enforcement.
    Mr. Labrador. With enforcement.
    Ms. Wood. You absolutely have to have enforcement. You 
can't just have exit without enforcement.
    Mr. Labrador. And I agree with that.
    Mr. Heyman. We are enforcing today. Number one, we sanction 
those who have overstayed the terms of their visa. Number two, 
we revoke those.
    Mr. Labrador. So you think 1,300 investigations is 
sufficient?
    Mr. Heyman. We obviously prioritize those in national 
security. No, some of those have been a 30-year drunken driving 
offense.
    Mr. Labrador. Okay. My time has expired. I just think that 
to come here and say that comprehensive immigration reform is 
the answer when we are not even willing to do the enforcement, 
we are not even willing to use the technology, is actually 
misleading the American public, and I am just really confused 
about that, and I hope that we can get this done. This has been 
on the books for 17 years. Let's get this done. Let's make it a 
trigger so we can do what all of us want, which is to actually 
fix this broken immigration system.
    My time has expired. The gentleman from Nevada has 5 
minutes.
    Mr. Jeffries. From New York.
    Mr. Labrador. I am sorry, from New York.
    Mr. Jeffries. Okay. Let me just thank the witnesses for 
their testimony here today and for the information that has 
been shared.
    I want to just direct for the moment a few questions to the 
Assistant Secretary, Mr. Heyman.
    Is it fair to say that the fundamental purpose of a 
comprehensive entry-exit system is designed to help this 
country enforce our Nation's immigration laws and make sure 
that those who are leaving and entering comply with those laws?
    Mr. Heyman. Yes.
    Mr. Jeffries. So in that context of immigration 
enforcement, I am interested in exploring the notion of what 
information DHS either currently collects or intends to collect 
from permanent residents and United States citizens. Now, as it 
relates to air-based entries and exits, what information do you 
collect right now on either permanent residents or United 
States citizens who are leaving the country or entering the 
country via air?
    Mr. Heyman. All individuals coming across our borders, we 
identify who is coming and going, and we retain that 
information.
    Mr. Jeffries. Right. And what is the purpose of collecting 
and retaining that information as it relates to permanent 
residents who have lawful status here in the United States, not 
subject to revocation or expiration, or even more significantly 
United States citizens?
    Mr. Heyman. Well, we do that for all of those individuals, 
whether it is a U.S. citizen or otherwise, who come across our 
borders. We do that for admissibility purposes for non-U.S. 
citizens, we do that for security reasons and law enforcement 
actions, and we do that for ensuring the safety and security of 
our country.
    Mr. Jeffries. Safety and security as it relates to the 
entry and the exit of United States citizens?
    Mr. Heyman. Well, United States citizens, if there is a 
warrant out for their arrest, if they are a convicted felon, if 
they are involved in any kind of felon activity, we would be 
interested in identifying them coming back across our border or 
leaving our country. It is an opportunity for law enforcement 
to act.
    Mr. Jeffries. Okay. Now, once you determine that there is 
either no applicable outstanding warrant, this is not a felon, 
this is not anyone who is currently in violation of any United 
States statute, do you retain that information?
    Mr. Heyman. There is a period of time when the data is 
retained, yes.
    Mr. Jeffries. And what is the duration of the retention of 
that information?
    Mr. Heyman. I would have to get back to you on that, sir.
    Mr. Jeffries. Okay. But it is your testimony that 
subsequent to the expiration of that period of time of the 
retention of that information, the United States Government no 
longer stores it within its electronic database capabilities?
    Mr. Heyman. Yes. For all of the databases that we have, 
there is a privacy impact analysis that is done and a statement 
that is issued for the public.
    Mr. Jeffries. Okay. So it is my understanding also, dealing 
with land-based crossings, that an agreement was signed between 
the President of this country and Prime Minister Harper, I 
believe, on February 4th, 2011; correct?
    Mr. Heyman. That is correct.
    Mr. Jeffries. And there are three phases to that agreement; 
correct?
    Mr. Heyman. Yes.
    Mr. Jeffries. And the third phase, which will be 
implemented in June of 2014, will require the recordation and 
exchange of information of United States citizens who cross 
between the United States and the Canadian border; correct?
    Mr. Heyman. Yes. Just like any border crossing, any arrival 
and departure, we will have all citizens, all persons who 
travel across the border identified.
    Mr. Jeffries. Okay. Now, is that information shared with 
any other government agency beyond DHS?
    Mr. Heyman. If there is a law enforcement nexus to it for 
criminal investigations, it might be shared.
    Mr. Jeffries. Okay. Does the NSA have access to that 
information?
    Mr. Heyman. I do not know.
    Mr. Jeffries. Okay. If you can report back to me or to this 
Committee as to whether the NSA currently has access to that 
information in terms of the crossings that take place on sea or 
via air, or whether the NSA will have access to that 
information once it begins to be recorded on June 14th or June 
of 2014, that would be helpful.
    Do you see any reason why, once it is determined that this 
individual who has crossed the border and is either a permanent 
resident or a United States citizen, there is no criminal 
justice nexus, why the NSA or any other Federal Government 
agency should have permanent access to that information?
    Mr. Heyman. Well, as I said, on a case-by-case basis for 
criminal investigations, if it becomes necessary for 
understanding, for example, somebody's alibi--``I was out of 
the country''--and they are in a criminal proceeding, that 
would be helpful to them. If it is at the nexus of a criminal 
action, it would be harmful to them, but that would be 
corroborating information that would be in a criminal 
investigation.
    Mr. Labrador. The gentleman's time has expired.
    Mr. Jeffries. Thank you.
    Mr. Labrador. Thank you very much.
    I just have one quick question for clarification. I didn't 
understand Mr. Heyman's answer earlier in the hearing. Ms. 
Wood, maybe you can respond to this.
    In April 2011, the GAO reported that there was a backlog of 
1.6 million unmatched arrivals. Then later on we know, as of 
2011, as of 2013, there is an additional million. But he stated 
that we have 100 percent knowledge of the people that are here. 
So I was confused about those two data points. Can you maybe 
explain that?
    Ms. Wood. Sure. With respect to the individuals that were 
identified, the 1.6 million in the GAO report, DHS agreed to 
review those records, and then this is what happened. 
Approximately 863,000 of those individuals had already 
departed, were in status, had adjusted, or there was some other 
reason they could be removed. So then DHS had left 839,000 
records, and they reviewed those records. They actually only 
reprioritized 1,901 of those records, and they sent those out 
to the ICE unit for further investigation. And of the 1,901 
records, nine of them were arrested, 266 could not be located 
and the investigation was closed pending new information, 481 
were referred to enforcement and removal operations or ERO, but 
ERO later told GAO that they didn't prioritize those, very few 
of those. So we don't know, but we assume that it is a very, 
very small number, if any, that were arrested from that. Forty-
three were previously arrested or were in proceedings. So it is 
a very small number of individuals that were actually arrested.
    DHS may have the ability to at least initially identify 
what information people put on their records. But to say that 
DHS knows where individuals are I think is a little bit of an 
overstretch specifically because so few leads are actually sent 
to ICE, and ICE is investigating so few of them.
    Mr. Labrador. And, Mr. Heyman, you didn't mean to say that 
you knew 100 percent of the people were here and where they 
were.
    Mr. Heyman. We knew what their disposition was, whether 
they had overstayed. The reason you send them to investigations 
is you are trying to find them.
    Mr. Labrador. Thank you. Thank you very much.
    This concludes today's hearing. Thanks to all of our 
witnesses for attending. It was a great hearing.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    The hearing is adjourned.
    [Whereupon, at 12:53 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

    Listing of Material submitted by the Honorable Bob Goodlatte, a 
 Representative in Congress from the State of Virginia, and Chairman, 
                       Committee on the Judiciary
    The information includes five GAO reports; a statement by Rebecca 
Gambler before the Subcommittee on Border and Maritime Security, House 
Committee on Homeland Security showing the DHS has not met the 
requirements in implementing a biometric air exit system; a report from 
Smart Border Alliance to DHS; two reports by Customs and Border 
Protection; a letter report by the Office of the Inspector General; and 
a Pew Research study that documents an increase in the number of 
unauthorized immigrants in the country.

                               __________
    GAO report entitled Homeland Security: Some Progress Made, but Many 
Challenges Remain on U.S. Visitor and Immigrant Status Indicator 
Technology Program. DHS created this report to better ensure that the 
US-VISIT program is worthy of investment and is managed effectively. To 
better ensure the effectiveness of this program, DHS will fully 
disclose in future expenditure plans its progress against previous 
commitments and that it reassess plans for deploying an exit 
capability.

        Acessible at http://www.gao.gov/assets/250/245389.pdf

                               __________
    GAO report entitled Homeland Security: U.S. Visitor and Immigrant 
Status Program's Long-standing Lack of Strategic Direction and 
Management Controls Need to Be Addressed. DHS has established a program 
known as U.S. Visitor and Immigrant Status Indicator Technology (US-
VISIT) to collect, maintain, and share information, including biometric 
identifiers, on certain foreign nationals who travel to the United 
States. By Congressional mandate, DHS is to develop and submit an 
expenditure plan for US-VISIT that satisfies certain conditions, 
including being reviewed by GAO. GAO reviewed the plan to (1) determine 
if the plan satisfied these conditions, (2) follow up on certain 
recommendations related to the program, and (3) provide any other 
observations. To address the mandate, GAO assessed plans and related 
documentation against federal guidelines and industry standards and 
interviewed the appropriate DHS officials.

        Accessible at: http://www.gao.gov/assets/270/265802.pdf

                               __________

    GAO report entitled Homeland Security: Key US-VISIT Components at 
Varying Stages of Completion, but Integrated and Reliable Schedule 
Needed. DHS' U.S. Visitor and Immigrant Status Indicator Technology 
(US-VISIT) program stores and processes biometric and biographic 
information to amongst other things, control and monitor the entry and 
exit of foreign visitors. Currently, an entry capability is operating 
at almost 300 U.S. ports of entry, but an exit capability is not. GAO 
has previously reported on limitations in DHS's efforts to plan and 
execute its efforts to deliver USVISIT exit, and made recommendations 
to improve these areas. GAO was asked to determine (1) the status of 
DHS's efforts to deliver a comprehensive exit solution and (2) to what 
extent DHS is applying an integrated approach to managing its 
comprehensive exit solution. To accomplish this, GAO assessed USVISIT 
exit project plans, schedules, and other management documentation 
against relevant criteria, and it observed exit pilots.

        Accessible at: http://www.gao.gov/new.items/d1013.pdf

                               __________

    GAO report entitled Homeland Security: US-VISIT Pilot Evaluations 
Offer Limited Understanding of Air Exit Options. DHS' U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT) program is to control 
and monitor the entry and exit of foreign visitors by storing and 
processing biometric and biographic information. The entry capability 
has operated since 2006; an exit capability is not yet implemented. In 
September 2008, the Consolidated Security, Disaster Assistance, and 
Continuing Appropriations Act, 2009, directed DHS to pilot air exit 
scenarios with the U.S. Customs and Border Protection (CBP) and 
airlines, and to provide a report to congressional committees. DHS 
conducted CBP and Transportation Security Administration (TSA) pilots 
and issued its evaluation report in October 2009. Pursuant to the act, 
GAO reviewed the evaluation report to determine the extent to which (1) 
the report addressed statutory conditions and legislative directions; 
(2) the report aligned with the scope and approach in the pilot 
evaluation plan; (3) the pilots were conducted in accordance with the 
evaluation plan; and (4) the evaluation plan satisfied relevant 
guidance. To do so, GAO compared the report to statutory conditions, 
the evaluation plan, and relevant guidance.

        Accessible at: http://www.gao.gov/assets/310/308630.pdf

                               __________
    GAO report entitled Overstay Enforcement: Additional Actions Needed 
to Assess DHS's Data and Improve Planning for a Biometric Air Exit 
Program. This report addresses the current need for additional action 
by DHS in order to fulfill its responsibility for identifying and 
taking enforcement action to address overstays. Within DHS, U.S. 
Customs and Border Protection (CBP) is tasked with, among other duties, 
inspecting all people applying for entry to the United States to 
determine their admissibility to the country and screening Visa Waiver 
Program applicants to determine their eligibility to travel to the 
United States under the program.

        Accessible at: http://www.gao.gov/assets/660/656316.pdf

                               __________
    Statement of Rebecca Gambler, Director of Homeland Security and 
Justice for GAO, before the Subcommittee on Border and Maritime 
Security, Committee on Homeland Security, House of Representatives; 
Border Security: Additional Actions needed to Improve Planning for a 
Biometric Air Exit System. Rebecca Gambler discusses DHS' efforts to 
implement a biometric exit system, as well as the full range of 
management challenges that DHS has faced in its effort to deploy a 
corresponding biometric exit system. Since 1996, federal law has 
required the implementation of an entry and exit data system to track 
foreign nationals entering and leaving the United States. The 
Intelligence Reform and Terrorism Prevention Act of 2004 required the 
Secretary of Homeland Security to develop a plan to accelerate 
implementation of a biometric entry and exit data system that matches 
available information provided by foreign nationals upon their arrival 
in and departure from the U.S.

        Accessible at: http://www.gao.gov/assets/660/658185.pdf

                               __________
    Smart Border Alliance report to DHS: US-VISIT Increment 2C RFID 
Feasibility Study Final Report. This document records the results of 
the RF Feasibility Study as it was conducted in a simulated environment 
(Mock Port of Entry). This, and the establishment of a Mock POE, must 
successful prior to Phase 1, POC implementation at POEs. Based upon 
successful completion of the Phase 1 Increment 2C POC, full operating 
capability will be implemented in Phase 2. Upon completion of Phase 2, 
a thorough evaluation will be conducted. Based upon the results of that 
evaluation, further deployment will be determined.

        Accessible at: http://www.dhs.gov/xlibrary/assets/foia/US-
        VISIT_RFIDfeasibility
        _redacted-051106.pdf

                               __________
    Entry/Exit Information System: Phase I Joint Canada-United States 
Report. This report discusses the planned development of a coordinated 
Entry/Exit Information system between the United States and Canada, as 
part of the Beyond the Border Declaration and Action Plan agreed to by 
President Obama and Prime Minister Harper in 2011.

        Accessible at: http://www.cbp.gov/linkhandler/cgov/newsroom/
        highlights/can
        ada_usreport.ctt/canada_usreport.pdf

                               __________

    Customs and Border Protection report entitled Comprehensive Exit 
Plan. This report describes DHS' recent efforts to implement an 
enhanced biographic exit system and biometric exit planning, to better 
target foreign nationals who overstay their lawful period of admission; 
the results of pilot programs at the land ports of entry along the 
northern and southern borders; and efforts to align CBP's missions and 
functions to meet the changes enacted in P.L. 113-6.
        Link not available. This report is inserted at the end of this 
        list (see Attachment).

                               __________

    OIG Letter Report: Department of Homeland Security US-VISIT Faces 
Challenges in Identifying and Reporting Multiple Biographic Identities. 
This Letter report written by the Assistant Inspector General of IT 
Audits Frank Deffer to Robert Mocny, the Director of US-VISIT, 
discusses two recommendations aimed at improving US-VISIT as deemed 
necessary by the OIG.

        Accessible at:
        http://www.oig.dhs.gov/assets/Mgmt/2012/OIG_12-111_Aug12.pdf

                               __________

    The Pew Research Hispanic Trends Project study: Population Decline 
of Unauthorized Immigrants Stalls, May Have Reversed. This study 
discusses how the sharp decline in the U.S. population of unauthorized 
immigrants that accompanied the 2007-2009 recession has bottomed out, 
and the number may be rising again. It further discusses the reasons 
behind this trend.

        Accessible at: http://www.pewhispanic.org/2013/09/23/
        population-decline-of-un
        authorized-immigrants-stalls-may-have-reversed

                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
